<html>
<title> - THE IMPORTANCE OF PUBLIC DISCLOSURE REQUIREMENTS FOR PROTECTING HUMAN HEALTH, THE CLIMATE, AND THE ENVIRONMENT, ON THE FOLLOWING BILL, AND OTHER RELATED MEASURES: H.R. 5636, ``TRANSPARENCY IN ENERGY PRODUCTION ACT OF 2020''</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
THE IMPORTANCE OF PUBLIC DISCLOSURE REQUIREMENTS FOR PROTECTING HUMAN 
 HEALTH, THE CLIMATE, AND THE ENVIRONMENT, ON THE FOLLOWING BILL, AND 
OTHER RELATED MEASURES: H.R. 5636, ``TRANSPARENCY IN ENERGY PRODUCTION 
                             ACT OF 2020''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       Tuesday, January 28, 2020

                               __________

                           Serial No. 116-29

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       


       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
                            ______
                          

                U.S. GOVERNMENT PUBLISHING OFFICE 
 39-615 PDF               WASHINGTON : 2020         
          
          


                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Joe Cunningham, SC                   Daniel Webster, FL
Nydia M. Velazquez, NY               Liz Cheney, WY
Diana DeGette, CO                    Mike Johnson, LA
Wm. Lacy Clay, MO                    Jenniffer Gonzalez-Colon, PR
Debbie Dingell, MI                   John R. Curtis, UT
Anthony G. Brown, MD                 Kevin Hern, OK
A. Donald McEachin, VA               Russ Fulcher, ID
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Jesus G. ``Chuy'' Garcia, IL
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                   
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                      ALAN S. LOWENTHAL, CA, Chair
              PAUL A. GOSAR, AZ, Ranking Republican Member

Mike Levin, CA                       Doug Lamborn, CO
Joe Cunningham, SC                   Bruce Westerman, AR
A. Donald McEachin, VA               Garret Graves, LA
Diana DeGette, CO                    Liz Cheney, WY
Anthony G. Brown, MD                 Kevin Hern, OK
Jared Huffman, CA                    Rob Bishop, UT, ex officio
Matt Cartwright, PA
Raul M. Grijalva, AZ, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, January 28, 2020........................     1

Statement of Members:

    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     4

    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     3

Statement of Witnesses:

    Goldman, Gretchen, Research Director, Center for Science and 
      Democracy, Union of Concerned Scientists, Washington, DC...    17
        Prepared statement of....................................    19
    Mason, Susan, Managing Partner, Aligned Partners; and 
      Founding Member, Business Coalition for Conservation and 
      Climate, San Francisco, California.........................     6
        Prepared statement of....................................     8
    Snover, Victor, Mayor, Aztec, New Mexico.....................     9
        Prepared statement of....................................    11
    Stein, Kenneth, Policy Director, Institute for Energy 
      Research, Washington, DC...................................    14
        Prepared statement of....................................    16

Additional Materials Submitted for the Record:

    National Mining Association, April 28, 2014 Letter to Dr. 
      Jean Rogers, The Sustainability Accounting Standards Board.    38
                              ----------                              




LEGISLATIVE HEARING ON THE IMPORTANCE OF PUBLIC DISCLOSURE REQUIREMENTS 
 FOR PROTECTING HUMAN HEALTH, THE CLIMATE, AND THE ENVIRONMENT, ON THE 
 FOLLOWING BILL, AND OTHER RELATED MEASURES: H.R. 5636, TO PROVIDE FOR 
   THE ACCURATE REPORTING OF FOSSIL FUEL EXTRACTION AND EMISSIONS BY 
     ENTITIES WITH LEASES ON PUBLIC LAND, AND FOR OTHER PURPOSES, 
           ``TRANSPARENCY IN ENERGY PRODUCTION ACT OF 2020''

                              ----------                              


                       Tuesday, January 28, 2020

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 1334, Longworth House Office Building, Hon. Alan S. 
Lowenthal [Chairman of the Subcommittee] presiding.
    Present: Representatives Lowenthal, Levin, Cunningham; 
Gosar, Westerman, and Hern.
    Also present: Representative Lujan.

    Dr. Lowenthal. The Subcommittee on Energy and Mineral 
Resources will come to order.
    Today, the Subcommittee is holding its first hearing of the 
2020 year, and it is on H.R. 5636, Transparency in Energy 
Production Act of 2020. This is legislation that I introduced 
earlier this month.
    Under Committee Rule 4(f), any oral opening statements are 
limited to the Chair and the Ranking Minority Member or their 
designee. I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Subcommittee Clerk by 5 p.m. today.
    Hearing no objection, so ordered.
    I am also asking for unanimous consent for Congressman Ben 
Ray Lujan to sit on the dais and participate in this morning's 
hearing.
    Hearing no objection, so ordered.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Dr. Lowenthal. First, I would like to welcome our witnesses 
and particularly thank those of you who have traveled great 
distances to be here with us today.
    My bill, on its face, is simply about transparency. It is 
about making sure that companies operating on America's public 
lands tell the public the basic information about how they run 
their operations.
    But it is actually more than that. The bill is about 
protecting public health, safeguarding the environment, and 
trying to keep the devastating impacts of climate change in 
check.
    The oil and gas industry has, for years now, touted natural 
gas as the solution to climate change. They point out, quite 
rightly, that burning natural gas produces fewer carbon 
emissions than burning coal. But they don't point out that 
there is also a catch. Methane, the main component of natural 
gas, is a powerful greenhouse gas, much worse for our climate 
than carbon dioxide.
    In fact, over a 20-year period, it is 86 times stronger or 
more powerful than carbon dioxide at trapping heat. That means 
that once a little bit of methane leaks, as little as 3 
percent, you are no better off for the climate than going back 
to coal.
    And it is not just about the climate. Methane is the main 
component of natural gas, but it is not the only component of 
natural gas. When methane leaks from oil and gas production, 
benzene leaks, hydrogen sulfide leaks, and other toxic volatile 
organic chemicals also leak.
    And the people who live near oil and gas sites breathe 
these in, or they breathe in the ozone that these chemicals 
help to create. They complain of nosebleeds, nausea, and more 
serious health problems, and their children have to go to the 
emergency room because of asthma attacks.
    I saw and smelled some of this firsthand last year when I 
visited and this Committee held a hearing in New Mexico. I went 
to a well pad not far from Chaco Canyon on a beautiful, clear 
spring day, and I saw some pipes and wellheads and storage 
tanks, and nothing seemed out of the ordinary.
    But then I looked through an infrared camera. Instead of a 
beautiful landscape, I saw billowing clouds of gas pouring out 
of all of this equipment. Methane, clear as day but invisible 
to the naked eye, was leaking unchecked into the air.
    Methane has no odor, but as I got closer, I could smell 
some other chemicals that felt like they were making me sick. I 
was able to get into our car and drive away. The people who 
live there don't have that option of driving away as soon as 
they smell it.
    The oil and gas industry likes to say they have this issue 
completely under control. It is just a few bad actors, or we 
are exaggerating it, and don't worry, they are going to take 
care of it. They have it under control.
    The industry shows us data from the Environmental 
Protection Agency saying that methane emissions are down 14 
percent since 1990, even as natural gas production has more 
than doubled. They don't like looking closer at the data, 
though, because it shows that all of the reductions in methane 
emission have come from better practices in transmission and in 
distribution.
    What we are talking about here today, the emissions of 
methane from wells and equipment in the field, the EPA data 
shows that when we just look at the emissions from the field, 
these emissions have increased by over 30 percent since 1990.
    Unfortunately, the EPA estimates are just that, an 
estimate. We don't know exactly how much methane companies are 
leaking, because there is no requirement for them to find out. 
And even if these companies look into it, there is no 
requirement to let the local communities nearby know what that 
data is.
    That is why we need the Transparency in Energy Production 
Act, and it is not just about methane. It is about transparency 
across the board.
    In 1986, President Reagan signed the Emergency Planning and 
Community Right-to-Know Act. The name of that law says it 
clearly: communities have a right to know what is being 
released into their own backyards.
    And the evidence has shown that requiring public disclosure 
helps drive down pollution. In the first 20 years after the law 
was signed, pollution releases dropped 59 percent.
    So, if the oil and gas industry and my friends on the 
Republican side are going to oppose strong regulations to cut 
down on methane emissions and claim that the data supports them 
on that, I hope they will support getting better data and 
giving it to the public.

    [The prepared statement of Dr. Lowenthal follows:]
 Prepared Statement of the Hon. Alan S. Lowenthal, Chair, Subcommittee 
                    on Energy and Mineral Resources
    First, I would like to welcome our witnesses and particularly thank 
those of you who traveled great distances to be here today.
    My bill, on its face, is simply about transparency. It's about 
making sure that companies operating on America's public lands tell the 
public basic information about how they run their operations.
    But it's actually about much more than that. The bill is about 
protecting public health, safeguarding the environment, and trying to 
keep the devastating impacts of climate change in check.
    The oil and gas industry has, for years now, touted natural gas as 
the solution to climate change. They point out, quite rightly, that 
burning natural gas produces fewer carbon emissions than burning coal. 
But they don't point out that there's a catch. Methane, the main 
component of natural gas, is a powerful greenhouse gas--much worse for 
our climate than carbon dioxide.
    In fact, over a 20-year period, it's 86 times stronger than carbon 
dioxide at trapping heat. This means that once a little bit of methane 
leaks--as little as 3 percent--you're no better off for the climate 
than going back to coal.
    And it's not just about the climate. Methane is the main component 
of natural gas, but it's not the only component of natural gas. When 
methane leaks, benzene leaks. Hydrogen sulfide leaks. Other toxic 
volatile organic chemicals leak.
    And the people who live near oil and gas sites breathe these in. Or 
they breathe in the ozone that these chemicals help create. They 
complain of nosebleeds, nausea, and more serious health problems, and 
their children have to go to the emergency room because of asthma 
attacks.
    I saw, and smelled, some of this firsthand last year in New Mexico. 
I went to a well pad not far from Chaco Canyon on a beautiful, clear 
spring day--and I saw some pipes and wellheads and storage tanks, and 
nothing seemed out of the ordinary.
    But then I looked through an infrared camera, and instead of a 
beautiful landscape, I saw billowing clouds of gas pouring out of all 
of this equipment. Methane--clear as day but invisible to the naked 
eye--was leaking unchecked into the air.
    Methane has no odor, but as I got closer, I could smell some other 
chemicals that felt like they were making me sick. I was able to get 
back in the car and drive away. The people who live near there don't 
have that option.
    The oil and gas industry likes to say they have this under control. 
It's just a few bad actors, or we're exaggerating, and don't worry, 
they've got this.
    The industry shows us data from the Environmental Protection Agency 
saying that methane emissions are down 14 percent since 1990, even as 
natural gas production has more than doubled. They don't like looking 
closer at that data, though, because it shows that all of the 
reductions in methane emissions have come from better practices in 
transmission and distribution.
    What we're talking about--the emissions of methane from wells and 
equipment in the field--the EPA data shows those emissions have 
increased by over 30 percent since 1990.
    Unfortunately, even that EPA data is largely an estimate. We don't 
know exactly how much methane companies are leaking, because there's no 
requirement for them to find out. And even if these companies look into 
it, there's no requirement to let nearby communities know.
    That's why we need the Transparency in Energy Production Act, and 
it's not just about methane. It's about transparency across the board.
    In 1986, President Reagan signed the Emergency Planning and 
Community Right-to-Know Act. The name of that law says it clearly: 
communities have a right to know what is being released into their own 
backyards.
    And the evidence has shown that requiring public disclosure helps 
drives down pollution. In the first 20 years after that law was signed, 
pollution releases dropped 59 percent.
    So, if the oil and gas industry and my friends on the Republican 
side are going to oppose strong regulations to cut down directly on 
methane emissions, and claim that the data supports them on that, then 
I hope they'll support getting better data and giving it to the public.

                                 ______
                                 

    Dr. Lowenthal. With that, I look forward to the testimony 
of our witnesses, and I now recognize Ranking Member Gosar for 
his opening statement.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Chairman.
    Today, the Subcommittee will consider H.R. 5636, the 
Transparency in Energy Production Act of 2020, sponsored by my 
friend, Chairman Lowenthal.
    This bill mandates that energy operators on Federal lands 
and waters must submit numerous reports based on the so-called 
sustainability accounting standards produced by the 
Sustainability Accounting Standards Board, or SASB, if they 
wish to bid on or operate a Federal lease.
    While we can all agree that we should be promoting 
transparency at all levels of government, especially concerning 
the multiple use management of our Federal lands, this bill 
misses the mark and instead places Federal transparency 
requirements in the hands of a non-profit organization.
    The SASB, which develops the rules for information that 
companies would be forced to disclose under this bill, is a 
non-governmental organization with no oversight from the 
Administration nor Congress.
    This is not to say that the experts employed by the Board 
are not credible or well meaning, but they are unaccountable, 
unelected, and have no official responsibility to the public.
    Furthermore, it is hard to argue that this Board is 
unbiased or apolitical as its top donors include 2020 
presidential candidates Michael Bloomberg and Tom Steyer, both 
of whom have been very transparent about their goals to end 
conventional energy development on Federal lands. Bloomberg 
even served as Chairman of the Board for several years and, 
according to the SASB website, remains very involved in leading 
the organization.
    This bill requires companies to issue reports based on SASB 
standards before bidding on a lease and issue additional 
reports annually on any active Federal leases they hold. If 
they fail to do so, the BLM can choose not to issue a lease or 
halt all production on a lease with no warning.
    Because the bill is unclear regarding how BLM must evaluate 
these reports, the BLM could claim that a report is deficient 
for any reason at all and shut down individual leases or even 
the entire leasing program.
    Further, if BLM decides to shut down operations because 
they deem a producer's report is incomplete, the affected 
entities may have valid takings claims against the Federal 
Government.
    Because this Board is unelected and unaccountable and this 
bill would make their standards law, the Board could 
theoretically make changes to their standards at any point, 
forcing companies to issue new reports or risk BLM shuttering 
their operations.
    Further, there is no mechanism in the bill for the 
Administration or Congress to amend the standards if the Board 
makes an unwelcome and unworkable change, or to account for 
implementation challenges.
    The sustainability accounting standards imposed by this 
bill include a multitude of disclosure topics and accounting 
metrics which companies must cover in their reports. Operations 
on Federal lands are already subject to numerous Federal 
regulatory requirements under several statutes and are 
accountable to multiple agencies before, during, and after 
operations take place.
    For example, the SASB requires companies to disclose 
information regarding greenhouse gas emissions and air quality, 
which operators must already report annually to the EPA.
    The standards call for information about impacts on 
biodiversity and Indigenous peoples, which are thoroughly 
considered throughout the NEPA process.
    The standards also ask for companies to report to BLM about 
their labor practices, which are rightfully regulated through 
the Department of Labor.
    Any aspect of responsibility executing and producing on 
Federal lease is accounted for and mandated through the Federal 
regulatory process, which includes reporting requirements and 
transparency. However, if this body determines that more 
accountability and transparency are needed, then that authority 
should remain with the relevant Federal agencies and with 
Congress.
    We should not be outsourcing our Federal regulatory 
requirements to a liberal non-profit group that has not been 
elected by the people or appointed by elected officials. I 
highly doubt that any of my colleagues would want to do the 
same for groups with ties to well-known conservative 
organizations or conservative presidential candidates.
    The mandate in this bill would not increase transparency or 
provide additional benefits to the public but would undoubtedly 
serve as fodder for lawsuits from anti-energy activists aimed 
at stymying domestic energy progress.
    The authority to regulate our natural resources should 
remain with the Administration and with Congress, not with non-
profits by those who wish to end multiple use altogether.
    With that, I yield back.

    Dr. Lowenthal. Thank you, Ranking Member Gosar.
    Now I am going to introduce today's witnesses. Our first 
witness is Ms. Susan Mason, Managing Partner at Aligned 
Partners and a Founding Member of the Business Coalition for 
Conservation and Climate. Our second witness is Mr. Victor 
Snover, the Mayor of Aztec, New Mexico, a former United States 
Army officer and a current high school Junior ROTC instructor. 
Our third witness is Mr. Kenneth Stein, the Policy Director for 
the Institute for Energy Research. And our final witness is Dr. 
Gretchen Goldman, the Research Director at the Center for 
Science and Democracy at the Union of Concerned Scientists.
    Let me remind the witnesses that they must limit their oral 
testimony to 5 minutes, but that their entire testimony will 
appear in the hearing record.
    When you begin, the lights in front of you on the witness 
table will turn green, but after 4 minutes, the yellow light 
will come on. Your time will have expired when the red light 
comes on, and I will ask you to please complete the statement 
that you are making.
    I will let you go on a little bit, but you know that you 
have reached the end.
    I am going to allow the entire panel to provide their 
testimony before we have any questioning of witnesses.
    The Chair now recognizes Ms. Mason to testify for 5 
minutes.
    Welcome to the Committee.

 STATEMENT OF SUSAN MASON, MANAGING PARTNER, ALIGNED PARTNERS; 
 AND FOUNDING MEMBER, BUSINESS COALITION FOR CONSERVATION AND 
               CLIMATE, SAN FRANCISCO, CALIFORNIA

    Ms. Mason. Good morning, Chairman Lowenthal, Ranking Member 
Gosar, and members of the Subcommittee.
    Thank you for inviting me to testify today regarding the 
importance of public disclosure requirements for protecting 
human health, the climate, and the environment. I sincerely 
appreciate the opportunity to be here.
    My name is Susan Mason, and I am a founder and managing 
partner of Aligned Partners, a venture capital firm based in 
Menlo Park, California. I am also a founding member of the 
Business Coalition for Conservation and Climate, an 
organization of leading business executives, investors, and 
venture capitalists, who feel strongly that the transparency 
and accountability within the oil and gas sector is critical to 
addressing climate change in the United States.
    For three decades, I have worked in the venture capital 
space and founded my own fund in 2011. Throughout this time, I 
have seen a remarkable transformation occur. After avoiding it 
for years, investors of all political stripes have come to 
realize that climate change is not only occurring but poses a 
real and clear threat to our economy.
    This transition is born out of absolute necessity. Studies 
have estimated the value of capital assets at risk of climate 
regulation or physical impacts could range from $4.2 trillion 
to $4.3 trillion by 2100.
    This realization has created a demonstrable shift in the 
investment strategy of leading banks and the management 
practices of some of the world's most notable polluters. We saw 
a tangible example of this tectonic shift earlier this morning 
when Larry Fink, Chief Executive Officer of BlackRock, the 
world's largest asset manager with over $7 trillion under 
management, informed the firm's clients that it would be 
altering its energy investment strategy to account for the risk 
posed by climate change.
    Not only would it be divesting from thermal coal 
altogether, the company would be applying newer, more rigorous 
screening for investments within the energy sector. In applying 
these new measures, Fink said that investors, along with 
regulators, insurers, and the public needed a clearer picture 
of how companies are managing sustainability-related questions.
    I could not agree more because a company's long-term 
prospects for success are completely dependent on its ability 
to sustain itself.
    BlackRock's example is one of countless I am seeing in the 
investment space. Leading oil and gas companies like BP and 
Exxon have all been required to modify their climate impacts 
because shareholders demanded action.
    In the most stark action to date, beginning this year, 
compensation for executives at Royal Dutch Shell will partially 
be tied to the company achieving short-term carbon emission 
targets.
    I am often asked why these changes are occurring, and the 
reason is that as access to information has improved, the 
investors in these companies have demanded that the companies 
in which they are invested in operate in their long-term best 
interest.
    While this shift is critically important for the long-term 
sustainability of our planet and the economy, it has not had a 
similar impact on the way our Federal lands are managed, which 
remains unchanged.
    The reason, I surmise, in part, is because the American 
people don't have the same level of access to information about 
the types of energy being developed on public lands and what 
the climate impact is of that development.
    As owners and caretakers of our Nation's resources, we 
should all strive for greater transparency and accountability 
from our Federal Government, particularly when it comes to our 
most cherished national resources, our public parks and 
monuments.
    Fortunately, legislation has recently been introduced by 
several members of this panel that would take important steps 
toward bringing greater transparency related to energy 
developed on public lands.
    The aptly named Transparency in Energy Production Act, or 
TEPA, would impose common-sense measurement standards on oil 
and gas companies holding or seeking a lease to acquire energy 
on public lands.
    I used the term ``common-sense'' because the bill uses a 
brilliantly eloquent solution, adopting the industry developed 
standards created by the Sustainability Accounting Standards 
Board, or SASB.
    SASB was created in 2011 by some of the Nation's largest 
banks and institutional investors to create a streamlined and 
administratively easy set of measures companies could use to 
report to their investors on sustainability risks and 
opportunity.
    Today, over 120 publicly traded companies use SASB to 
report to their investors and the public. This list includes 
oil and gas companies, like Apache, Baytex, GS Caltex, 
Halliburton, and others.
    TEPA does not mandate a change in the types of energy 
developed, but rather gives the American people the data they 
need to make informed decisions and compel them to manage these 
areas in the national interest. Just as publicly traded 
companies are required to share critical information with their 
shareholders, as owners of these lands the American people are 
entitled to that information. And as the private sector is 
already demonstrating, money can be made without degrading our 
health and environment.
    I want to thank this Committee for holding today's hearing 
on the vital role transparency should play in the management of 
public lands and urge support for H.R. 5636.
    Thank you.

    [The prepared statement of Ms. Mason follows:]
Prepared Statement of Susan Mason, Managing Partner of Aligned Partners 
  and Founding Member of the Business Coalition for Conservation and 
                                Climate
    Chairman Lowenthal, Ranking Member Gosar, and members of the 
Subcommittee, thank you for inviting me to testify today regarding 
``The Importance of Public Disclosure Requirements for Protecting Human 
Health, the Climate, and the Environment.'' I sincerely appreciate the 
opportunity to be here.
    My name is Susan Mason, I am a founder and Managing Partner of 
Aligned Partners, a venture capital firm based in Menlo Park, 
California. I am also a founding member of the Business Coalition for 
Conservation and Climate, an organization of leading business 
executives, investors, and venture capitalists who feel strongly that 
the transparency and accountability within the oil and gas sector is 
critical to addressing climate change in the United States.
    For three decades, I have worked in the venture capital space and 
founded my own fund in 2011. Throughout this time, I have seen a 
remarkable transformation occur. After avoiding it for years, investors 
of all political stripes have come to realize that climate change is 
not only occurring, but poses a real and clear threat to our economy.
    The transition is born out of absolutely necessity. Studies have 
estimated the value of capital assets at risk of climate regulation or 
physical impacts could range from $4.2 trillion to $4.3 trillion by 
2100. This realization has created a demonstrable shift in the 
investment strategy of leading banks, and the management practices of 
some of the world's most notable polluters.
    We saw a tangible example of this tectonic shift earlier this month 
when Larry Fink, Chief Executive Officer of BlackRock, the world's 
largest asset manager with over $7 trillion under management, informed 
the firm's clients that it would be altering its energy investment 
strategy to account for the risk posed by climate change. Not only 
would it be divesting from thermal coal altogether, the company would 
be applying newer, more rigorous screening for investments within the 
energy sector.
    In applying these new measures, Fink said that investors, along 
with regulators, insurers, and the public, need a clearer picture of 
how companies are managing sustainability-related questions. I could 
not agree more because a company's long-term prospects for success are 
completely dependent on its ability to sustain itself.
    BlackRock's example is one of countless I am seeing in the 
investment space. Leading oil and gas companies like BP and Exxon have 
all been required to modify their climate impacts, because shareholders 
demanded action. In the most stark action to date, beginning this year, 
compensation for executives and Royal Dutch Shell will partially be 
tied to the company reaching short-term carbon emissions targets.
    I am often asked why these changes are occurring and the reason is 
that as access to information has improved, the investors in these 
companies have demanded that the companies in which they are invested 
are operating in their long-term best interests.
    While this shift is critically important for the long-term 
sustainability of our planet and the economy, it has not had a similar 
impact on the way our Federal lands are managed which remain unchanged. 
The reason I surmise, in part, is because the American people don't 
have the same level of access to information about the types of energy 
being developed on public lands, and what the climate impact is of that 
development.
    As owners and caretakers of our Nation's resources, we should all 
strive for greater transparency and accountability from our Federal 
Government, particularly when it comes to our most cherished natural 
resource, our public parks and monuments. Fortunately, legislation was 
recently introduced by several members of this panel that would take 
important steps toward bringing greater transparency related to energy 
developed on public lands.
    The aptly named Transparency in Energy Production Act, or TEPA, 
would impose common-sense measurement standards on oil and gas 
companies holding or seeking a lease to acquire energy on public lands. 
I use the term common-sense, because the bill uses a brilliantly 
eloquent solution, adopting the industry developed standards created by 
the Sustainability Accounting Standards Board, or SASB. SASB was 
created in 2011 by some of the Nation's largest banks and institutional 
investors to create a streamlined, and administratively easy, set of 
measures companies could use to report to their investors on 
sustainability risk and opportunity.
    Today, over 120 publicly traded companies use SASB standards to 
report to their investors, and the public. This list includes oil and 
gas companies like Apache, Baytex, GS Caltex, Halliburton, Hess, Kinder 
Morgan, NRG, Southern Company, Southwestern Energy and TC Energy.
    TEPA does not mandate a change in the types of energy developed, 
but rather gives the American people the data they need to make 
informed decisions and compel to manage these areas in the national 
interest. Just as publicly traded companies are required to share 
critical information with their shareholders, as owners of these lands, 
the American people are entitled to that information, and as the 
private sector is already demonstrating, money can be made without 
degrading our health and environment. I want to thank this Committee 
for holding today's hearing on the vital role transparency should play 
in the management of public lands and urge support for H.R. 5636.

                                 ______
                                 

    Dr. Lowenthal. Thank you, Ms. Mason.
    Now I turn to Mr. Snover for your testimony. Welcome.

      STATEMENT OF VICTOR SNOVER, MAYOR, AZTEC, NEW MEXICO

    Mr. Snover. Good morning, Chairman Lowenthal, Ranking 
Member Gosar, and members of the Subcommittee. Thank you for 
inviting me to testify today in support of H.R. 5636. I 
sincerely appreciate the opportunity to be here.
    My name is Victor Snover, and I am the elected City 
Commissioner and Mayor of Aztec, New Mexico. I am also a 
current high school Junior ROTC instructor and former U.S. Army 
noncommissioned officer.
    I come before you today advocating for the people of Aztec, 
New Mexico, many of whom are disproportionately impacted by 
fossil fuel emissions leading to short- and long-term impacts 
on their health, community, and livelihoods.
    The legislation before us today would help communities like 
mine make informed decisions regarding the impacts of harmful 
oil and gas emissions ranging from how we spend our small local 
budgets, from health care to infrastructure, education and 
mitigation from local oil and gas pollution, to simply if our 
kids should spend time outside on a particular day due to high 
rates of pollutants in the air.
    In my day job as a public high school teacher at Aztec High 
School, anecdotally, I would estimate approximately half of my 
students suffer from some sort of respiratory issue.
    I also recognize that there can be other mitigating factors 
for this, but I believe that we should be doing everything and 
anything within our power as elected officials and policy 
makers to reduce as many of those mitigating factors as we 
possibly can.
    Maximizing profits should never be a factor when it comes 
to public health and safety. At a minimum, our communities 
should know what kinds of emissions are being pumped into our 
atmosphere from the oil and gas industry.
    In 2014, NASA discovered what has often been described as 
the Delaware size methane cloud in the upper atmosphere above 
the Four Corners region of the United States. My community of 
Aztec is in the very heart of this region nestled in the far 
northwest corner of the beautiful state of New Mexico.
    Covering approximately 2,500 square miles of our region, 
the Four Corners methane hot spot is the most concentrated area 
of methane pollution in the entire United States. That bears 
repeating--the entire United States.
    This problem affects tens of thousands of people in the 
region living in communities like Farmington, New Mexico just 
up the road from me; Bloomfield; and my home of Aztec, New 
Mexico, along with many other towns around us.
    This methane cloud did not just suddenly appear. It is the 
result of years of companies polluting our air without 
detailing the full extent of their projects' impacts. H.R. 5636 
would begin to remedy this problem.
    Colorado has become a model for us to emulate. In 2014, 
they placed limits on methane emissions, and even still their 
oil and gas industry is still going strong. Proof of the 
concept that reducing waste in emissions does not harm the 
industry, but it can help the health, well-being, and quality 
of life of the people living in and around extraction sites 
while still creating jobs.
    The states are leading the way, but we need alignment with 
the Federal Government.
    In New Mexico, under current regulations and rules, there 
is an annual loss of $275 million in energy resources and an 
additional $43 million in state tax and royalty revenue that we 
could and that we should be investing in our school systems.
    In a state where our education system consistently ranks in 
the lower tier nationally, any opportunity to increase revenue 
for educational programs should be explored.
    New Mexico's methane emissions are said to have the same 
short-term impacts on our climate as 22 coal-fired power plants 
or 28 million internal combustion engine automobiles.
    Beyond resource and revenue losses, the unnecessary leaks 
of methane are allowing other harmful forms of pollution to 
escape that lead to ozone smog. The state's air quality data 
shows that San Juan County, which is the county in which Aztec 
is located, is at risk of violating Federal ozone standards.
    We should not be willing to accept outcomes that put 
industry profit over the general health and clean air standards 
that we need to live productive lives. In areas with diminished 
air quality, it is often the youngest and the oldest amongst us 
that suffer disproportionately more.
    It is the poorest of us that suffer most because they do 
not possess the resources to move further away from well sites 
or to seek the needed medical treatment to help with their 
respiratory issues, like emphysema and asthma.
    Thankfully, the state of New Mexico is now turning the 
corner to be on the leading edge of working to reduce emissions 
and understand the actual level of emissions that are resulting 
from oil and gas. But, unfortunately, the Federal Government, 
mainly the Bureau of Land Management, or BLM, is failing to do 
so, thus taking us backward and risking our public health and 
livelihood in the process.
    The legislation before us today is a good first step at 
addressing these environmental injustices and the climate 
crisis, and helping state and local leaders make informed 
decisions about their communities' energy needs.
    With greater information, we have a more informed citizenry 
who can make better decisions about their future. As Thomas 
Jefferson once said, ``An educated citizenry is a vital 
requisite for our survival as a free people.'' I believe that 
holds true today.
    I look forward to answering any questions you may have 
today, and thank you again.

    [The prepared statement of Mr. Snover follows:]
   Prepared Statement of Victor Snover, Mayor, Aztec, New Mexico and 
                        former U.S. Army Officer
                              introduction
    Chairman Lowenthal, Ranking Member Gosar, and members of the 
Subcommittee, thank you for inviting me to testify today regarding 
``The Importance of Public Disclosure Requirements for Protecting Human 
Health, the Climate, and the Environment.'' I sincerely appreciate the 
opportunity to be here.
    My name is Victor Snover, and I'm the Mayor of Aztec, New Mexico. 
I'm also a current high school Army JROTC instructor, and after 22 
years of service, a retired United States Army Non-Commissioned 
Officer. I come before you today to advocate for the hardworking people 
of Aztec, New Mexico, many of whom are disproportionately impacted by 
fossil fuel emissions leading to short- and long-term impacts on their 
health, community and livelihoods. The legislation before us today 
would help communities like mine make informed decisions regarding the 
impacts of harmful oil and gas emissions. Ranging from how we spend our 
small local budget--from health care to infrastructure, education and 
mitigation from local oil and gas pollution--to if our kids should 
spend time outside on a particular day due to the high rates of 
pollutants in the air.
                               background
    I am an elected City Commissioner, the Mayor of Aztec, but my day 
job is as a public high school teacher at Aztec High School. 
Anecdotally, I would estimate approximately half of my students suffer 
from some form of respiratory issues. I recognize that there can be 
other mitigating factors for this, but I also believe that we should be 
doing everything within our power, as elected officials and policy 
makers, to reduce as many of those contributing factors as we possibly 
can. That means having the courage to hold those contributors to these 
issues, like the oil and gas industry, accountable. Maximizing profits 
should never be a factor when it comes to public health and safety. At 
minimum, our community should know what kinds of emissions are being 
pumped into our atmosphere from the oil and gas industry.
    In 2014, NASA discovered what has often been described as a 
``Delaware sized methane cloud'' in the upper atmosphere above the Four 
Corners region of the United States.\1\ My community of Aztec is in the 
heart of this region nestled in the far northwest corner of the 
beautiful state of New Mexico.
---------------------------------------------------------------------------
    \1\ https://science.nasa.gov/science-news/science-at-nasa/2014/
09oct_methanehotspot/.
---------------------------------------------------------------------------
    Covering approximately 2,500 sq/mi. of our region, the Four Corners 
methane hot spot is the most concentrated area of methane pollution in 
the entire United States.\2\ This problem affects tens of thousands of 
people in this region living in communities like Farmington, Bloomfield 
and my home of Aztec along with many other towns in New Mexico. This 
methane cloud did not just suddenly appear, it's the result of years of 
companies polluting our air without detailing the full extent of their 
project's impacts. H.R. 5636, the Transparency in Energy Production Act 
of 2020 would begin to remedy this problem.
---------------------------------------------------------------------------
    \2\ https://science.nasa.gov/science-news/science-at-nasa/2014/
09oct_methanehotspot/.
---------------------------------------------------------------------------
    Take Colorado, which has become a model for us to emulate. In 2014, 
they placed limits on methane emissions, and their oil and gas industry 
is still going strong. Their example provides proof of the concept that 
reducing waste and emissions does not harm the industry, but more 
importantly that it can help the health, well-being, and quality of 
life of the people living in and around extraction sites, while still 
creating jobs. Many states are leading the way, but we need alignment 
with the Federal Government.
    In New Mexico, under current regulations and rules, there is an 
annual loss of $275 million in energy resources and an additional $43 
million in state tax and royalty revenue that we could and that we 
should be investing in our school systems.\3\ In a state where our 
education system consistently ranks in the lower tier nationally, any 
opportunity to increase revenue for educational programs should be 
explored.
---------------------------------------------------------------------------
    \3\ http://blogs.edf.org/energyexchange/files/2019/09/Synapse-
Methane-Cost-Benefit-Report.pdf.
---------------------------------------------------------------------------
    New Mexico's methane emissions are said to have the same short-term 
impacts on our climate as 22 coal-fired power plants or 28 million 
internal combustion automobiles.\4\
---------------------------------------------------------------------------
    \4\ http://blogs.edf.org/energyexchange/files/2019/09/Synapse-
Methane-Cost-Benefit-Report.pdf.
---------------------------------------------------------------------------
    Beyond resource and revenue losses, the unnecessary leaks of 
methane are allowing other harmful forms of pollution to escape that 
lead to ozone smog. The state's air quality data shows that San Juan 
County, which is the county in which Aztec is located, is at risk of 
violating Federal ozone standards.\5\ We should not be willing to 
accept outcomes that put industry profit over the general health and 
clean air standards that we need to live healthy and productive lives. 
In areas with diminished air quality, it is often the youngest and the 
oldest among us that suffer disproportionately and it's the poorest of 
us that suffer most because they don't possess the resources to move 
further away from well sites and/or seek the needed medical treatment 
to help with their respiratory issues like emphysema and asthma.
---------------------------------------------------------------------------
    \5\ https://www.sanjuancitizens.org/oil-and-gas/new-epa-ozone-
standard-does-not-go-far-enough.
---------------------------------------------------------------------------
    Thankfully the state of New Mexico is now turning the corner to be 
on the leading edge of working to understand and reduce emissions 
resulting from oil and gas. But unfortunately, the Federal Government--
mainly the Bureau of Land Management (BLM)--is failing to do so, thus 
taking us backward, and risking our public health and livelihood in the 
process.
    The legislation before us today is a good first step at addressing 
these environmental injustices and the climate crisis. It will empower 
state and local leaders to make informed decisions about their 
communities' energy needs. With greater information, we will have a 
more informed citizenry, who can make better decisions about their 
futures. As Thomas Jefferson once said, ``an educated citizenry is a 
vital requisite for our survival as a free people.'' \6\ I believe that 
holds true here today, perhaps. more than ever.
---------------------------------------------------------------------------
    \6\ Wagoner, Jennings. Jefferson and Education. Charlottesville, 
VA.: Thomas Jefferson Foundation, 2004.
---------------------------------------------------------------------------
                    emissions from u.s. public lands
    Our Federal lands play an important role in climate change and 
should also play a role in the solutions. The U.S. Government is one of 
the largest energy asset managers in the world, and yet it has done 
little to inform its shareholders--American taxpayers--about the 
Federal energy program and its associated climate related risks.
    Where there is fossil fuel production there are emissions. 
Emissions associated with oil, gas and coal production from Federal 
lands are equivalent to more than 20 percent of total U.S. greenhouse 
gas emissions. For comparison, if Federal lands were a country, it 
would rank 5th in the world in total emissions behind China, India, the 
United States and Russia.\7\
---------------------------------------------------------------------------
    \7\ https://www.wilderness.org/articles/article/federal-lands-
emissions-accountability-tool.
---------------------------------------------------------------------------
    Until recently, the Federal Government was not tracking emissions 
from fossil fuel production on Federal lands, and is still not 
developing a plan to reduce them. The government does not have one, 
centralized publicly accessible database for all data related to 
Federal oil, natural gas and coal. The data that is available, while 
useful, is incomplete. Further, there are no sources available that 
provide a comprehensive accounting of greenhouse emissions from Federal 
lands.
    America's public lands belong to the American people and they, as a 
result, have a right to know how much energy is being developed and the 
associated climate risks. Just as shareholders of publicly traded 
companies receive key information regarding financial risk to their 
portfolios, taxpayers deserve to know how their energy assets are being 
managed and have a say in the direction of the Federal energy program 
moving forward.
    We have a solution to fight climate change. It's our public lands. 
While current management of our Nation's public lands makes them a 
significant contributor to the U.S. climate change problem, they have 
the potential to play an even bigger role in climate solutions.
                                requests
    To make our Nation's public lands part of the climate solution 
instead of the problem, the Federal Government should immediately 
reduce fossil fuel emissions from public lands. We must reduce 
emissions tied to energy development on public lands and waters at or 
ahead of the pace dictated by climate science. Emissions from coal, oil 
and gas produced on public lands and waters make up more than 20 
percent of the United States' total greenhouse gas emissions. As such, 
policy makers must establish an ambitious goal of net zero emissions 
from public lands and waters by 2030.
    While driving down fossil fuel emissions, we must simultaneously 
unlock the potential of the United States' public lands and waters to 
help achieve a clean energy future. Some of our Nation's best solar, 
wind and geothermal resources are found on public lands. Carefully 
choosing the best sites and expanding renewable energy development on 
public lands can help boost local economies, provide new job 
opportunities across a range of skill levels, and generate additional 
revenue streams for state and local governments.

    As the U.S. Federal Government is one of the largest energy asset 
managers in the world, and yet still does not sufficiently track or 
make available the data associated with the production and emissions 
from fossil fuels developed on Federal lands and waters, we need a 
better way. H.R. 5636--the Transparency in Energy Production Act of 
2019 (TEPA) takes a first step by directing companies seeking or 
holding a lease to drill on public lands to track and report the amount 
of energy production and resulting emissions from Federal lands and 
waters, and more specifically, the following:

  1.  Uses standards established by nationally recognized 
            Sustainability Accounting Standards Board (SASB) to report 
            the amount, type, and source of fossil fuels produced under 
            Federal leases, including the methane gas released by 
            venting, naring, and fugitive release on Federal lands.

  2.  Reports the amount of energy produced by renewable energy 
            projects on Federal lands.

  3.  Makes information publicly available through database created and 
            maintained by the Department of the Interior.

    By beginning to implement policies that reduce our dependence on 
fossil fuels, curb emissions, promote renewable energy all under a 
transparent process then we can transition our economy into a clean 
energy future where no one gets left behind because we have all the 
necessary information up front. Our public lands are a great first 
place to start.

                                 ______
                                 

    Dr. Lowenthal. Thank you, Mr. Snover.
    The Chair now recognizes Mr. Stein for your testimony. 
Welcome.

  STATEMENT OF KENNETH STEIN, POLICY DIRECTOR, INSTITUTE FOR 
                ENERGY RESEARCH, WASHINGTON, DC

    Mr. Stein. Mr. Chairman, Mr. Ranking Member, thank you for 
the opportunity to participate in this Subcommittee hearing.
    My name is Kenny Stein, and I am the Policy Director for 
the Institute of Energy Research. We are a free market think 
tank covering energy and environment policy here in DC.
    The legislation under discussion at this hearing suffers 
from a number of infirmities. It disregards basic structures of 
administrative law and, indeed, constitutional law. It 
duplicates existing regulations and disclosure requirements, 
and in practice, it would merely serve to increase the costs 
and barriers to energy development on Federal lands.
    I will begin with the most egregious of this bill's 
deficiencies, which is the outsourcing of Federal regulatory 
power to a non-government entity with a clear ideological 
agenda.
    Section 2 of the legislation cites disclosure standards 
created by the SASB, as discussed, and proposes to mandate that 
entities seeking or holding leases on Federal land file reports 
which comply with the SASB standards in effect at the date of 
the filing of that report.
    Thus, if and when the SASB makes changes to its standards, 
the disclosure requirements for Federal leaseholders and 
seekers will automatically change by action of law. This means 
that the SASB would have the regulatory power to set disclosure 
standards for Federal leasing.
    The SASB is not a government agency. Its board is not 
appointed by the President or confirmed by the Senate. It is 
entirely independent of the Federal Government.
    Put simply, this is an unconstitutional delegation of 
Federal regulatory power. While the Supreme Court historically 
has been very lenient about delegations of congressional 
authority to executive branch agencies, it has been unequivocal 
that delegation of legislative powers to private entities is 
unconstitutional.
    The delegation of the regulatory power to set disclosure 
standards to the SASB cannot pass constitutional muster.
    The reasoning for this blanket constitutional bar is made 
obvious by the situation we see before us. The SASB is an 
explicitly ideological organization. It seeks to promote 
adoption of its views of what constitutes sustainability.
    It was founded and funded by organizations like the 
Rockefeller Foundation and Bloomberg philanthropies and, as 
previously discussed, Michael Bloomberg is a former chairman of 
the organization, and he remains chairman emeritus today, even 
as he runs for President on a platform of halting fossil fuel 
development on Federal lands.
    The legislation would give this ideological organization 
the unchecked power to set regulatory standards for Federal 
leasing.
    The conflict here is obvious. Handing regulatory authority 
to the SASB as proposed in this bill is analogous to a 
conservative Member of Congress proposing a bill to hand over 
some aspect of Federal regulatory authority to the Heritage 
Foundation.
    Both the title of this legislation and the press release 
and discussion from its sponsors imply that there is a lack of 
transparency about the current leasing process on Federal 
lands, but this is very misleading.
    The disclosures contemplated in the SASB guidelines are in 
many instances duplicates of information that leaseholders 
already report to Federal agencies, while other parts of the 
guidelines are completely irrelevant to the operation of a 
Federal lease.
    For example, leaseholders already report emissions to the 
EPA, including for greenhouse gases. However, unlike existing 
reporting requirements, the SASB doesn't actually include any 
metrics for how compliance with their reports can be assessed.
    Likewise, the SASB standards include disclosures about 
biodiversity impacts, but Federal leases are already subject to 
the NEPA process.
    For additional SASB sections like business ethics, 
community relations, and security and human rights, besides 
those being vague concepts, it is not clear what bearing those 
subjects have on a company's competency to manage a lease on 
Federal lands.
    So, rather than a genuine bid for transparency, this 
legislation is more accurately described as an effort to impose 
higher costs on energy leasing on Federal land. The vagueness 
of many of the SASB guidelines serves a dual purpose in this 
raising of cost.
    On the front end, the company has to come up with new 
accounting and compliance processes in order to collect and 
produce the information demanded, and then on the back end, the 
vagueness opens up new avenues for litigation from anti-
development organizations over judgment call calculations or 
assertions that one of the extraneous disclosure categories has 
not been completed satisfactorily.
    Use of the SASB guidelines is also a backdoor effort to 
achieve regulatory goals under the guise of transparency that 
otherwise could not pass Congress.
    For example, one of the primary criticisms of the Obama 
administration's proposed methane regulations was the steep 
cost of new monitoring equipment needed to comply with the 
rules.
    Requiring the SASB disclosures would impose those same 
monitoring costs, though this time not even with the 
justification of trying to reduce methane emissions.
    As drafted, the legislation is poorly constructed. It is 
expensive, duplicative, and frankly, unconstitutional. 
Mandating the SASB standards looks suspiciously like using 
Federal power to coerce participation in a private NGO's pet 
project.
    If Congress wishes to create standards for sustainability 
for Federal leasing or for any other Federal contracting, the 
appropriate process is to try to mandate to relevant Federal 
agencies to develop standards through the administrative 
process.
    In addition to having the advantage of being 
constitutional, such a process has long-standing administrative 
procedure and legal principles that ensure the rights of the 
companies and individuals impacted by the standards are 
protected.
    Thank you for this opportunity. I look forward to your 
questions.

    [The prepared statement of Kenneth Stein follows:]
  Prepared Statement of Kenneth Stein, Policy Director, Institute for 
                            Energy Research
    Mr. Chairman, thank you for the opportunity to participate in this 
Subcommittee hearing.
    My name is Kenny Stein, I am the Policy Director for the Institute 
for Energy Research, a free-market organization that conducts research 
and analysis on the function, operation, and regulation of energy 
markets.
    The legislation (H.R. 5636) under discussion at this hearing 
suffers from a number of infirmities. It disregards basic standards of 
administrative law, and indeed constitutional law, it duplicates 
existing regulations and disclosure requirements, and in practice it 
would merely serve to increase the costs and barriers to energy 
development on Federal lands.
                            unconstitutional
    I will begin with the most egregious of this bill's deficiencies: 
the outsourcing of Federal regulatory power to a non-governmental 
entity with a clear ideological agenda. Section 2 of the legislation 
cites disclosure standards created by the Sustainability Accounting 
Standards Board (SASB) and proposes to mandate that entities seeking or 
holding leases on Federal lands file reports which comply with the SASB 
standards in effect ``at the date'' of the filing. Thus, if and when 
the SASB makes changes to its disclosure standards, the disclosure 
requirements for Federal leaseholders and seekers will also change 
automatically by action of law. This means that the SASB would have the 
regulatory power to set disclosure standards for Federal leasing. The 
SASB is not a government agency. Its board is not appointed by the 
President or confirmed by the Senate. It is entirely independent of the 
Federal Government.
    Put simply this is an unconstitutional delegation of Federal 
regulatory power. While the Supreme Court has historically been very 
lenient about delegations of congressional authority to executive 
branch agencies, it has been unequivocal that delegation of legislative 
powers to private entities is unconstitutional. The delegation of the 
regulatory power to set disclosure standards to the SASB cannot pass 
constitutional muster.
    The reasoning for this blanket constitutional bar is made obvious 
by the situation we see before us. The SASB is an explicitly 
ideological organization. It seeks to promote adoption of its views of 
what constitutes ``sustainability.'' It was founded and is funded by 
foundations like the Rockefeller Foundation and Bloomberg 
Philanthropies, which are ideologically hostile to conventional energy 
development. Michael Bloomberg was the chairman of the organization 
from 2014-2018, and remains a chairman emeritus today even as he runs 
for President on a platform of halting fossil fuel development on 
Federal lands. The legislation would give this ideological organization 
the unchecked power to set regulatory standards for Federal leasing. 
The conflict here is obvious. Handing regulatory authority to the SASB 
as proposed in this bill is analogous to a conservative Member of 
Congress proposing a bill to hand over some aspect of Federal 
regulatory authority to the Heritage Foundation.
                      duplication not transparency
    Both the title of this legislation and the press release from its 
sponsors imply that there is a lack of transparency in the current 
leasing process on Federal lands, but this is misleading. The 
disclosures contemplated in the SASB guidelines are in many instances 
duplicates of information that leaseholders already report to relevant 
Federal agencies, while other parts of the guidelines are completely 
irrelevant to the operation of a Federal lease.
    For example, leaseholders already report emissions to the EPA, 
including for greenhouse gases. Unlike existing reporting requirements, 
though, the SASB does not have any metrics by which compliance can be 
assessed. Likewise the SASB standards include disclosures about 
biodiversity impacts, but Federal leases are already subject to the 
National Environmental Policy Act process. For additional SASB sections 
like business ethics, community relations, and security and human 
rights, besides being vague concepts, it is not clear what bearing 
those subjects have on a company's competency to manage a lease on 
Federal lands.
    Additionally, the global nature of these disclosures is of 
questionable necessity. The SASB guidelines are designed for investors 
interested in sustainability to evaluate a company holistically on its 
global operations. The question is what relevance these extraneous 
disclosures have on the operation of a Federal lease. To take one 
disclosure category from the SASB guidelines, what does the 
``percentage of proved and probable reserves in or near areas of 
conflict'' have to do with seeking a lease in Utah?
                       imposing unnecessary costs
    Rather than a genuine bid for transparency, this legislation is 
more accurately described as an effort to impose higher costs on energy 
leasing on Federal lands.
    The vagueness of many of the SASB guidelines serves a dual purpose 
in raising costs. On the front end, a company has to come up with new 
accounting and compliance processes in order to collect and produce the 
information demanded. On the back end, the vagueness opens up new 
avenues for litigation from anti-development organizations over 
judgment call calculations or assertions that one of the extraneous 
disclosure categories is not completed satisfactorily.
    Use of the SASB guidelines is also a backdoor effort to achieve 
regulatory goals under the guise of transparency that otherwise could 
not pass Congress. For example, one of the primary criticisms of the 
Obama administration's proposed methane regulations was the steep cost 
of new monitoring equipment to comply with the rules. Requiring SASB 
disclosures could impose those very same monitoring costs, though this 
time not even with a justification of trying to reduce methane 
emissions.
                               conclusion
    As drafted, the legislation is very poorly constructed: expensive, 
duplicative and frankly unconstitutional. Mandating the SASB standards 
looks suspiciously like using Federal power to coerce participation in 
a private NGO's pet project. If Congress wishes to create standards for 
sustainability, for Federal leasing or any other Federal contracting, 
the appropriate process is to provide a mandate to the relevant Federal 
agencies to develop standards through the administrative process. In 
addition to having the advantage of being constitutional, such a 
process has long-standing administrative procedure and legal principles 
that ensure that the rights of companies and individuals impacted by 
the standards are protected. The approach taken by this legislation 
should be rejected.

    Thank you for this opportunity and look forward to your questions.

                                 ______
                                 

    Dr. Lowenthal. Thank you, Mr. Stein.
    The Committee now recognizes Dr. Goldman for your 
testimony. Welcome to the Committee, Dr. Goldman.

 STATEMENT OF DR. GRETCHEN GOLDMAN, RESEARCH DIRECTOR, CENTER 
   FOR SCIENCE AND DEMOCRACY, UNION OF CONCERNED SCIENTISTS, 
                         WASHINGTON, DC

    Dr. Goldman. Thank you, Chairman Lowenthal and Ranking 
Member Gosar, for the opportunity to testify at this important 
hearing.
    My name is Dr. Gretchen Goldman, and I serve as the 
Research Director in the Center for Science and Democracy at 
the Union of Concerned Scientists.
    For nearly a decade, I have been working on corporate 
engagement on climate science and policy, community right to 
know, and public access to scientific information.
    Communities around the country have long been affected by 
the activities of the fossil energy industry. These communities 
endure environmental hazards and health impacts without even 
knowing what is in the air they breathe or the water they 
drink.
    This is the reason regulatory safeguards and disclosure 
requirements exist, to protect people. Energy companies have an 
obligation to disclose the social and environmental impacts of 
their operations. These are common-sense expectations.
    Yet, current disclosure by the fossil energy industry is 
woefully inadequate. Companies continue to operate on public 
lands close to residential areas and with minimal oversight. 
This lack of disclosure leaves decision makers, investors, and 
communities in the dark, costing taxpayers and threatening 
public health and safety.
    This is why we need legislation like the Transparency in 
Energy Production Act of 2020. H.R. 5636 would help ensure 
access to vital information that can protect the public and 
promote responsible corporate governance.
    A record of bad behavior demonstrates that the fossil 
energy industry needs our oversight, not our trust. Fossil 
energy companies have consistently failed to report sufficient 
details on their social and environmental impacts. This is 
despite requirements by the U.S. Securities and Exchange 
Commission and despite investor and public pressure.
    If companies are not honest about what is happening in 
their backyards, how can we trust them to be honest about what 
is happening in ours?
    Companies' social license to operate is contingent upon 
their being a transparent and responsible actor. Unfortunately, 
from refusals to share basic information with decision makers 
and medical personnel, to preventable explosions that have 
evacuated entire communities, to illegal dumping and unsafe 
practices, fossil energy companies have lost the public trust.
    This is not just about disclosure. It is about the rights 
of communities to know about public health threats and to have 
the information they need to protect themselves. When this 
information is concealed, people are unable to make informed 
decisions about their daily lives.
    Should my child play in our yard? Is our water safe to 
drink? Is it safe to breathe the air?
    The answers to these simple questions can mean the 
difference between an uneventful day and another trip to the 
emergency room.
    Increasingly and disproportionately, it is low income 
communities, communities of color and Indigenous communities, 
living, working, and going to school near energy production 
sites. It is these communities that must ask these simple 
questions and face companies' insufficient answers.
    Continued lack of disclosure by the fossil energy industry 
has meant communities have had to advocate for themselves, 
negotiating with companies, conducting community science, and 
fighting in the courts, all to access information that should 
be public.
    The disclosures outlined in H.R. 5636 are feasible and long 
overdue. Fossil energy companies routinely collect data on well 
sites, chemicals, wastewater, and other environmental 
monitoring. It is reasonable and necessary that these data be 
shared in an open, timely, and accessible way.
    The Sustainability Accounting Standards Board disclosures 
requested in the bill were produced working closely with the 
extractives industry and align with the disclosures that public 
companies must make annually to the U.S. Securities and 
Exchange Commission anyway.
    When energy companies fail to disclose their human and 
environmental footprints, it is others who will pay the price. 
The public pays in tax dollars when first responders, 
healthcare workers, local governments, and Federal aid services 
must respond to the disasters at fossil energy facilities. And 
nearby communities pay every day when they are exposed to harm 
from routine emissions, leaks, and other damages made worse by 
poor disclosure and management.
    Companies owe it to all of us to be responsible actors. The 
Transparency in Energy Production Act will help keep families 
informed, corporations held accountable, and the public safe. 
This is a future worth striving for.
    Thank you.

    [The prepared statement of Dr. Goldman follows:]
   Prepared Statement of Dr. Gretchen T. Goldman, Research Director, 
    Center for Science and Democracy, Union of Concerned Scientists
    Thank you, Chairman Lowenthal and Ranking Member Gosar, for the 
opportunity to testify at this important hearing. My name is Gretchen 
Goldman, and I serve as the Research Director in the Center for Science 
and Democracy at the Union of Concerned Scientists. For nearly a 
decade, I have been working on corporate engagement on climate science 
and policy, community right to know, and public access to scientific 
information.
    Communities around the country have long been affected by the 
activities of fossil energy companies, enduring environmental hazards 
and health impacts without knowing precisely what is in the air they 
breathe or the water they drink. This is the reason regulatory 
safeguards and disclosure requirements exist: To protect people. Energy 
companies have an obligation to disclose the social and environmental 
impacts of their operations. These are common-sense expectations, but 
current disclosure by the fossil energy industry is woefully 
inadequate. Companies continue to operate on public lands, close to 
residential areas, with minimal oversight. This leaves decision makers, 
investors, and communities in the dark, costing taxpayers and 
threatening public health and safety. This is why we need legislation 
like the ``Transparency in Energy Production Act of 2020.'' H.R. 5636 
would ensure access to the vital information that can protect the 
public and promote responsible corporate governance.
                  voluntary disclosure is insufficient
    A record of bad behavior demonstrates that the fossil energy 
industry needs our oversight, not our trust. Historically, many 
companies in carbon-intensive industries have opted out of voluntary 
Environmental, Social, and Governance (ESG) reporting and commitment 
initiatives, and there is little reason to believe this would change 
with new voluntary initiatives.\1\ Even initiatives created with 
industry input, such as the Task Force for Climate-related Financial 
Disclosures, or backed by investors, such as CDP,\2\ have seen 
lackluster participation from the oil and gas 
industry.\3\<SUP>,</SUP>\4\
---------------------------------------------------------------------------
    \1\ Goldman, G.T., K. Mulvey, P. Frumhoff, et al. 2017. A 
Methodology for Assessment of Corporate Responsibility on Climate 
Change: A Case Study of the Fossil Energy Industry. Journal of 
Environmental Investing. 8 (1) Online at http://www.thejei.com/jei-vol-
8-no-1-2017/.
    \2\ CDP, formerly The Carbon Disclosure Project, is a non-profit 
organization that works with cities and companies to enhance disclosure 
of environmental, social and governance metrics.
    \3\ CDP. 2019. Explore the Scores. Online at: https://www.cdp.net/
en/companies/companies-scores.
    \4\ Task Force on Climate-related Financial Disclosures. 2019. TCFD 
Supporters. Online at: https://www.fsb-tcfd.org/tcfd-supporters/.
---------------------------------------------------------------------------
    Moreover, voluntary reporting is rarely timely and accessible. 
Disclosures are often released well after the time period in which they 
are useful, in formats that are not machine-readable, and in language 
that is inaccessible to non-experts.\5\ In particular, privately held 
companies, which have no obligations to shareholders, have been 
conspicuously absent from voluntary disclosure regimes.
---------------------------------------------------------------------------
    \5\ Konschnik, K., M. Holden, and A. Shasteen. 2013. Legal 
Fractures in Chemical Disclosure Laws. Why the Voluntary Chemical 
Disclosure Registry FracFocus Fails as a Regulatory Compliance Tool. 
Harvard Law School. Environmental Law Program. April 23. Online at 
http://eelp.law.harvard.edu /wp-content /uploads /legal-fractures-
voluntary-chemical-disclosure-registry-fails-regulatory-compliance-
tool.pdf.
---------------------------------------------------------------------------
    Even when disclosure is legally mandated, companies have 
demonstrated an unwillingness to provide enough--or any--information, 
shifting the burden to government agencies to conduct oversight with 
incomplete records. In 2010, the U.S. Securities and Exchange 
Commission (SEC) issued guidance asking companies to disclose climate-
related material risks in their annual form 10-Ks.\6\ However, a 2018 
Government Accountability Office report found that the SEC faces 
constraints in their efforts to collect, verify, and analyze company 
responses on climate-related risk.\7\ Fossil energy production 
companies in particular have consistently failed to report details on 
their climate-related risk, including information on the facilities 
that are vulnerable to the physical impacts of climate change and the 
actions companies are, or aren't, taking to mitigate those risks.\8\
---------------------------------------------------------------------------
    \6\ U.S. Securities and Exchange Commission. 2010. Commission 
Guidance Regarding Disclosure Related to Climate Change. Washington, 
DC. Online at https://www.sec.gov/rules/interp/2010/33-9106.pdf.
    \7\ Government Accountability Office. 2018. Climate-Related Risks: 
SEC Has Taken Steps to Clarify Disclosure Requirements. February. GAO-
18-188. Online at: https://www.gao.gov/assets/700/690197.pdf.
    \8\ Carlson, C., G. Goldman, and K. Dahl. 2016. Stormy Seas, Rising 
Risks: Assessing Undisclosed Risk from Sea Level Rise and Storm Surge 
at Coastal U.S. Oil Refineries. In: Drake J., Y. Kontar, J. 
Eichelberger, et al. (eds) Communicating Climate-Change and Natural 
Hazard Risk and Cultivating Resilience. Advances in Natural and 
Technological Hazards Research, vol 45. Springer, Cham, Switzerland.
---------------------------------------------------------------------------
    For example, after Hurricane Katrina in 2005, a refinery sitting on 
private land below sea level in Meraux, Louisiana spilled 25,000 
barrels of oil, contaminating city canals and more than a square mile 
of neighborhood.\9\ The refinery was shut down for several months, and 
Murphy Oil, which owned the facility, agreed to a $330 million 
settlement.\10\ The refinery was damaged again from the 2008 hurricane 
season and shut down for many days.\11\ Following this incident, in 
2010 Murphy Oil disclosed to the SEC that ``the physical impacts of 
climate change present potential risks for severe weather (floods, 
hurricanes, tornadoes, etc.) at our Meraux . . . refinery in southern 
Louisiana and our offshore platforms in the Gulf of Mexico.'' \12\ Yet, 
Valero Energy Corporation, which acquired the Meraux facility from 
Murphy Oil in 2011, has not disclosed any climate risks at the 
facility. Valero's 2018 SEC filing noted only that there could be ``If 
climatic events [such as increased frequency and severity of storms, 
droughts, and floods] were to occur, they could have an adverse effect 
on our assets and operations.'' \13\ If we can't trust companies to be 
honest about what is happening in their own backyards, how can we trust 
them to be honest about what is happening in ours? Voluntarily 
disclosure is not enough.
---------------------------------------------------------------------------
    \9\ Environmental Protection Agency. 2006. Murphy Oil USA refinery 
spill: Chalmette and Meraux, LA. Region 6 Oil Response Team U.S. EPA. 
Archive document: Presentation. Online at https://www.epa.gov/oem/docs/
oil/fss/fss06/franklin_2.pdf.
    \10\ MSNBC.com News Services (MNS). 2006. $330 million settlement 
deal in Katrina oil spill. MSNBC.com, September 25. Online at http://
www.nbcnews.com/id/15004868/ns/us_news-environment/t/million-
settlement-deal-katrina-oil-spill/.
    \11\ Department of Energy. 2009. Comparing the Impacts of the 2005 
and 2008 Hurricanes on U.S. Energy Infrastructure. Online at https://
www.oe.netl.doe.gov/docs/HurricaneComp0508 r2.pdf.
    \12\ Murphy Oil. 2011. 2010 SEC Form 10-K filing. Online at https:/
/www.sec.gov/Archives/edgar/data/717423/000119312513082919/
d446290d10k.htm.
    \13\ Valero Energy. 2018. 2018 SEC Form 10-K filing. Online at 
https://www.sec.gov/Archives/edgar/data/1035002/000103500219000008/
vloform10-kx12312018.htm.
---------------------------------------------------------------------------
    Companies' own investors are speaking up, too. In recent years, 
shareholders at major fossil energy companies, including ExxonMobil and 
Chevron, have demanded, through shareholder resolutions and investor 
requests, more disclosure of climate-related risks and plans, and 
expressed dissatisfaction with current levels of disclosure.\14\ A 2019 
report by McKinsey found that 82 percent of investors and 66 percent of 
executives agreed or strongly agreed that companies should be required 
by law to issue sustainability reports.\15\ Currently, voluntary 
disclosures, company annual reports, and SEC guidance are the only 
resources investors have to make informed investment decisions, and 
details on climate-related risk are variable and often sparse.
---------------------------------------------------------------------------
    \14\ Ceres. 2019. The Role of Investors in Supporting Better 
Corporate ESG Performance. Online at https://www.ceres.org/sites/
default/files/reports/2019-04/Investor_Influence_report.pdf.
    \15\ McKinsey & Company. 2019. More than values: The value-based 
sustainability reporting that investors want. Online at: https://
www.mckinsey.com/business-functions/sustainability/our-insights/more-
than-values-the-value-based-sustainability-reporting-that-investors-
want.
---------------------------------------------------------------------------
               disclosure is reasonable and long overdue
    The disclosures outlined by H.R. 5636 are feasible. The bill relies 
on disclosure metrics set by the Sustainability Accounting Standards 
Board (SASB), a leader in corporate disclosure and a reporting regime 
with robust and detailed industry-specific disclosure standards. SASB 
standards for the Extractives & Mineral Processing Industry and 
Renewable & Alternative Energy Industry were produced hand-in-hand with 
industry participation, and they align with the reporting that public 
companies must anyway report annually to the SEC. Moreover, fossil 
energy companies already collect data on well sites, chemicals used, 
wastewater contents, and other activities on a routine basis. It is 
reasonable and necessary to ask that these data be shared in a timely 
and accessible way.
    Further, such disclosure is long overdue. As has been documented, 
other industries are subject to similar reporting requirements.\16\ For 
example, the locations of hazardous waste sites, the smokestack 
emissions of power plants, and the composition of wastewater released 
from industrial activities all have public disclosure requirements. 
Though there are limitations on the details disclosed in these cases, 
much of the information is available through the U.S. Environmental 
Protection Agency (EPA), so the public can learn about environmental 
impacts and potential health risks. However, the fossil energy industry 
has avoided this level of mandatory disclosure.
---------------------------------------------------------------------------
    \16\ Goldman, G., D. Bailin, P. Rogerson, et al. 2014. Toward an 
Evidence-Based Fracking Debate. Online at: https://www.ucsusa.org/
hfreport.
---------------------------------------------------------------------------
    The activities and plans of companies extracting fossil energy on 
public lands are largely a black box. Companies are subject to public 
reporting requirements under the National Environmental Policy Act when 
they bid to develop public lands and there are some ongoing enforcement 
and inspection of operations by the Bureau of the Land Management and 
EPA, but no comprehensive reporting on ongoing operations exists and 
very little information is publicly available at the bidding stage. And 
while companies must regularly report the quantity of extracted 
minerals, communities are left in the dark about air quality, water 
quality, and other measures critical to assessing public health 
impacts.
    H.R. 5636 provides an important opportunity for the public, 
especially those living adjacent to fossil energy facilities, to access 
information that has long been unavailable. For example, the SASB Water 
Management Disclosures mandated in the bill would require companies 
disclose details on the backflow and produced water associated with 
hydraulic fracturing activities. Such information, if publicly 
accessible and reliably available, would be invaluable for affected 
communities and researchers who have long sought to understand the 
public health and environmental impacts of these steps in the 
production process.\17\
---------------------------------------------------------------------------
    \17\ Rosenberg, A., P. Phartiyal, G. Goldman, et al. 2014. Exposing 
Fracking to Sunlight. Issues in Science and Technology 31(1):74-79.
---------------------------------------------------------------------------
                  lack of disclosure harms the public
    When people are kept in the dark about environmental and public 
health risks, they are unable to answer simple, crucial questions: Can 
my family drink our tap water? Should my children play in the yard? Is 
our air safe to breathe? The answers to these questions can mean the 
difference between an uneventful day or another trip to the emergency 
room. Increasingly and disproportionately, it is low-income 
communities, communities of color, and Indigenous communities that 
live, work, and send their kids to school near energy production sites. 
It is these communities that must ask these questions and face 
companies' insufficient answers.\18\<SUP>,</SUP>\19\ As a result, 
communities have had to advocate for themselves, negotiating with 
industry, conducting community science, and fighting in the courts--all 
to access information that should be public.
---------------------------------------------------------------------------
    \18\ National Association for the Advancement of Colored People and 
Clean Air Task Force. 2017. Fumes Across the Fence-Line. Online at: 
http://www.naacp.org/wp-content/uploads/2017/11/Fumes-Across-the-Fence-
Line_NAACP_CATF.pdf.
    \19\ Silva, G.S., J.L. Warren, and N.C. Deziel. 2018. Spatial 
Modeling to Identify Sociodemographic Predictors of Hydraulic 
Fracturing Wastewater Injection Wells in Ohio Census Block Groups. 
Environmental Health Perspectives. 126 (6). https://doi.org/10.1289/
EHP2663.
---------------------------------------------------------------------------
    For example, in 2014, a group of concerned residents, startled by 
companies' lack of disclosure, worked with scientists to collect data 
and publish a study on air quality at the fence lines of oil and gas 
facilities in six states (Arkansas, Colorado, New York, Ohio, 
Pennsylvania, and Wyoming).\20\ The researchers found elevated levels 
of benzene, formaldehyde, and hydrogen sulfide--in some cases, at 
levels exceeding 100 times the EPA guidelines. Communities have a right 
to know about these risks, and energy producers have a responsibility 
to disclose them, adequately and proactively.
---------------------------------------------------------------------------
    \20\ Macey, G.P., R. Breech, M. Chernaik, et al. Air concentrations 
of volatile compounds near oil and gas production: a community-based 
exploratory study. Environ Health 13, 82 (2014), doi:10.1186/1476-069X-
13-82.
---------------------------------------------------------------------------
    Lack of disclosure can have serious health consequences. In 2008, 
Cathy Behr, an emergency room nurse in Durango, Colorado, was caring 
for a gas-drilling worker who had developed a headache and nausea after 
spilling hydraulic fracturing fluid on himself. The company refused to 
reveal the chemicals in the fluid, citing trade secrets.\21\ Days 
later, Behr herself was admitted to the hospital and diagnosed with 
liver, respiratory, and heart failure. Behr survived, but her doctors 
were forced to treat her without knowing the chemicals she had been 
exposed to.
---------------------------------------------------------------------------
    \21\ Greene, S. 2008. Oil secret has nasty side effect. The Denver 
Post. July 24. Online at https://www.denverpost.com/2008/07/23/oil-
secret-has-nasty-side-effect/.
---------------------------------------------------------------------------
    Lack of oversight of methane facilities can also have disastrous 
consequences. In 2015, at an underground methane storage field outside 
Los Angeles, a corroded pipe casing and safety failures caused the 
largest known methane leak.\22\ Over a 4-month period, the leak 
displaced more than 8,300 households, who left to avoid the smell and 
potential health effects, including nosebleeds, nausea, and headaches. 
In 2018, the company responsible, Southern California Gas Co., reached 
a $119.5-million settlement of claims from the incident.\23\
---------------------------------------------------------------------------
    \22\ California Public Utilities Commission. 2019. Root cause 
analysis of the uncontrolled hydrocarbon release from Aliso Canyon SS-
25. May 16.
    \23\ Barboza, T. 2018. SoCal Gas agrees to $119.5-million 
settlement for Aliso Canyon methane leak--biggest in U.S. history. Los 
Angeles Times. August 8. Online at: https://www.latimes.com/local/
lanow/la-me-aliso-canyon-settlement-20180808-story.html.
---------------------------------------------------------------------------
    Moreover, these large-scale incidents don't tell the whole story. 
Between October 1, 2011 and September 1, 2016, the Bureau of Land 
Management documented more than a thousand ``Major Undesirable 
Events,'' the agency's term for spills and accidents on oil and gas 
leases.\24\ These examples represent irresponsible corporate behavior 
that can endanger communities and erode public trust.\25\ We should 
expect better.
---------------------------------------------------------------------------
    \24\ Bureau of Land Management. 2017. ``BLM's MAJOR UNDESIRABLE 
EVENTS (MUEs) from 10-1-2011 to 9-1-2016.'' Administrative record for 
the Bureau of Land Management, Rescission of 2015 Hydraulic Fracturing 
Rule, 82 Fed. Reg. 61924 (Dec. 29, 2017).
    \25\ Rosenberg, A., P. Phartiyal, G. Goldman, et al. 2014. Exposing 
Fracking to Sunlight. Issues in Science and Technology 31(1):74-79.
---------------------------------------------------------------------------
     researchers face hurdles to studying environmental health from
                           lack of disclosure
    Researchers have struggled to access the data they need to study 
key questions about the social and environmental impacts of the energy 
industry. For example, scientists researching the effects of 
unconventional oil and gas development have been hindered by restricted 
access to well sites, limited data-sharing by industry and government 
officials, data concealed by legal settlements, and trade secret 
exemptions in chemical disclosure laws.\26\<SUP>,</SUP>\27\ These 
restrictions impede researchers' ability to determine how frequently 
spills, leaks, and other environmental impacts occur and gauge what 
steps might mitigate risks to communities and workers.\28\ Greater 
disclosure requirements would remove barriers to our understanding of 
energy production's impact on people and the environment.
---------------------------------------------------------------------------
    \26\ Colborn, T., C. Kwiatkowski, K. Schultz, et al. 2011. Natural 
Gas Operations from a Public Health Perspective. Human and Ecological 
Risk Assessment: An International Journal. 17(5):1039-1056. October. 
Online at https://www.biologicaldiversity.org/campaigns/fracking/pdfs/
Colborn_2011_Natural_Gas_from_a_public_health_perspective.pdf.
    \27\ Zielinska, B., E. Fujita, and D. Campbell. 2011. Monitoring of 
emissions from Barnett Shale natural gas production facilities for 
population exposure assessment. Final report to the National Urban Air 
Toxics Research Center. NUATRC number 19. Online at https://
sph.uth.edu/mleland/attachments/DRI-Barnett%20Report%2019%20Final.pdf.
    \28\ Environmental Protection Agency. 2012. Study of the Potential 
Impacts of Hydraulic Fracturing on Drinking Water Resources. Progress 
report. EPA 601/R-12/011. December. Online at https://www.epa.gov/
sites/production/files/documents/hf-report20121214.pdf.
---------------------------------------------------------------------------
              companies must be responsible climate actors
    Leakage of methane and other greenhouse gases at fossil energy 
production sites contributes substantially to U.S. greenhouse gas 
emissions. A 2018 analysis published in Science found that routine 
flaring contributed 18 percent of the total volume-weighted-average 
carbon intensity for the United States.\29\ The Department of the 
Interior is required by law to prevent energy waste like this, and to 
ensure that resource extraction on public lands is conducted in a safe 
and responsible manner.\30\ In order to properly manage such emissions, 
companies must adequately monitor activities, and fully disclose 
emissions. This is necessary to minimize the energy sector's outsized 
contribution to climate change, preserve Federal lands, and protect the 
public. Fossil energy companies are among those most responsible for 
climate change; they have an obligation to society to disclose their 
activities and minimize future risks from climate-related damages.\31\
---------------------------------------------------------------------------
    \29\ Masnadi, M.S., et al. 2018. Global carbon intensity of crude 
oil production. Science 361 (6405), 851-853 DOI: 10.1126/
science.aar6859.
    \30\ Martin, J. 2017. Testimony to House Committee on Natural 
Resources: The Health, Environmental and Economic Risks of the 
Republican Campaign to Repeal the Bureau of Land Management's Methane 
Waste Rule. February 1.
    \31\ Frumhoff, P.C., R. Heede, and N. Oreskes. The climate 
responsibilities of industrial carbon producers. Climatic Change (2015) 
132:157. https://doi.org/10.1007/s10584-015-1472-5.
---------------------------------------------------------------------------
    greater transparency needed in the current political environment
    Greater transparency of U.S. energy production is needed now, 
especially in light of recent executive branch actions that have 
further concealed the industry from public scrutiny. The Trump 
administration:

    <bullet> Rescinded a Bureau of Land Management rule that would have 
            required greater chemical disclosure, as well as monitoring 
            and reduction of methane pollution on new and existing oil 
            and gas production on public lands.\32\
---------------------------------------------------------------------------
    \32\ Goldman, G. 2017. Trump Administration Rescinds Fracking Rule 
for Public Lands: A Blow to Public Protection. Union of Concerned 
Scientists. Online at https://blog.ucsusa.org/gretchen-goldman/trump-
administration-rescinds-fracking-rule-for-public-lands-a-blow-to-
public-protection?_ga=2.210254742.2094529910.1579636272-
1783996088.1570113323.

    <bullet> Proposed changes to the National Environmental Policy Act 
            that would weaken analysis and reporting requirements and 
            limit opportunity for public input.\33\
---------------------------------------------------------------------------
    \33\ Council on Environmental Quality. 2020. Update to the 
Regulations Implementing the Procedural Provisions of the National 
Environmental Policy Act. Online at: https://www.federalregister.gov/
documents/2020/01/10/2019-28106/update-to-the-regulations-implementing-
the-procedural-provisions-of-the-national-environmental.

    <bullet> Is rolling back an EPA rule that establishes requirements 
            for monitoring and reducing methane pollution from new oil 
            and gas production on public or private lands.\34\
---------------------------------------------------------------------------
    \34\ Kennedy, M. 2019. EPA Aims To Roll Back Limits On Methane 
Emissions From Oil And Gas Industry. NPR. August 29. Online at https://
www.npr.org/2019/08/29/755394353/epa-aims-to-roll-back-limits-on-
methane-emissions-from-oil-and-gas-industry.

    <bullet> Withdrew an EPA Request for Information that asked 
            companies for data on methane emissions from U.S. oil and 
            gas production.\35\
---------------------------------------------------------------------------
    \35\ U.S. Environmental Protection Agency. 2017. Letter to Oil and 
Natural Gas Industry. March 6. Online at https://www.epa.gov/sites/
production/files/2017-03/documents/
oil_and_gas_information_request_withdrawal_letter_sample_to_post_1.pdf.

    <bullet> Withdrew from the international widely accepted Extractive 
            Industries Transparency Initiative, which provides a 
            vehicle for consistent disclosure and reporting of 
            extractive industries worldwide.\36\
---------------------------------------------------------------------------
    \36\ U.S. Department of the Interior. 2017. Letter to the 
Extractive Industries Transparency Initiative. Online at: https://
www.doi.gov/sites/doi.gov/files/uploads/eiti_withdraw.pdf.

    A recent incident at the Department of the Interior concerning a 
loss of scientific integrity exemplifies the need for this bill. The 
Department, weighing proposed oil and gas operations in Alaska's Arctic 
National Wildlife Refuge, disregarded 18 memos from staff scientists 
who had raised concerns about the proposals.\37\ The scientists 
identified significant data gaps on the effects of oil and gas drilling 
on the health and livelihoods of rural and Native Alaskans; the 
survivability of birds, caribou, polar bears, wolves, and fishes; and 
the inability to predict effects on vegetation, snowmelt, and 
waterways.\38\ DOI suppressed these concerns, omitting them from the 
Department's draft environmental assessment and declining to release 
them to public interest groups who filed Freedom of Information Act 
requests.
---------------------------------------------------------------------------
    \37\ Brugger, K. 2019. Interior hid scientists' criticism of ANWR 
drilling: report. E&E News. Online at https://www.eenews.net/greenwire/
2019/03/12/stories/1060127067.
    \38\ Public Employees for Environmental Responsibility. 2019. 
Undisclosed Statements of Scientific Concern. Online at https://
my.visme.co/projects/6xo09mn7-anwr-drilling-undisclosed-scientific-
concerns.
---------------------------------------------------------------------------
    The disclosure requirements outlined in this bill would have 
ensured public access to the kind of information suppressed in this 
case. Companies would have had to disclose the potential impacts of 
their operations on water resources, biodiversity, community relations, 
and Indigenous rights. When citizens can access this information, they 
can hold companies and decision makers accountable for actions that 
could degrade natural resources, endanger health, or hurt communities.
                     disclosure is good governance
    Companies themselves also benefit from greater disclosure. Such 
disclosure mitigates financial, reputational, and legal risks. All 
companies operate with a social license,\39\ and those that fail to act 
responsibly can lose the public's trust.\40\ Heightened societal 
awareness and public pressure can incentivize companies to act in 
accordance with their responsibilities to investors and to 
society.\41\<SUP>,</SUP>\42\
---------------------------------------------------------------------------
    \39\ Reuters. 2017. Shell CEO urges switch to clean energy as plans 
hefty renewable spending. Online at https://www.reuters.com/article/us-
ceraweek-shell-shell-idUSKBN16G2DT.
    \40\ Goldman, G.T., K. Mulvey, P. Frumhoff, et al. 2017. A 
Methodology for Assessment of Corporate Responsibility on Climate 
Change: A Case Study of the Fossil Energy Industry. Journal of 
Environmental Investing. 8 (1). Online at http://www.thejei.com/jei-
vol-8-no-1-2017/.
    \41\ Oreskes, N., and E.M. Conway. 2011. ``Merchants of doubt: How 
a handful of scientists obscured the truth on issues from tobacco smoke 
to global warming.'' New York: Bloomsbury Press.
    \42\ Union of Concerned Scientists. 2018. The Climate 
Accountability Scorecard. Online at https://www.ucsusa.org/resources/
climate-accountability-scorecard-0.
---------------------------------------------------------------------------
    Companies increasingly face financial risks from climate change. 
Climate change-related impacts, like more severe storms and floods, 
represent costly physical risks; for fossil energy companies, risks are 
predicted to increase as existing vulnerabilities to natural disasters 
worsen.\43\<SUP>,</SUP>\44\ Companies also face reputational risks as 
public attitudes toward corporate behavior change. Across all economic 
sectors, the transition to a lower-carbon economy will reshape the 
global financial system: Models project that climate change will place 
global financial assets at risk by anywhere from US $2.5 trillion to US 
$24.2 trillion.\45\
---------------------------------------------------------------------------
    \43\ Whelan, T. and C. Fink. 2016. ``The Comprehensive Business 
Case for Sustainability.'' Harvard Business Review. Accessed on July 
12, 2017. Available from https://hbr.org/2016/10/the-comprehensive-
business-case-for-sustainability.
    \44\ Goldman, G.T., K. Mulvey, P. Frumhoff, et al. 2017. A 
Methodology for Assessment of Corporate Responsibility on Climate 
Change: A Case Study of the Fossil Energy Industry. Journal of 
Environmental Investing. 8 (1). Online at http://www.thejei.com/jei-
vol-8-no-1-2017.
    \45\ Dietz, S., et al. 2016. Climate value at risk of global 
financial assets. Nature Climate Change. 6:676-679.
---------------------------------------------------------------------------
    The financial sector is increasingly recognizing that climate-
related risks are material for companies. All three major ratings 
agencies--Moody's, Standard & Poor, and Fitch--now recognize that 
climate change represents a financial risk.\46\ Just this month, the 
CEO of the world's largest asset management company, BlackRock, noted, 
``The evidence on climate risk is compelling investors to reassess core 
assumptions about modern finance. In the near future--and sooner than 
most anticipate--there will be a significant reallocation of capital.'' 
\47\ A recent report by the non-profit Ceres found that half of the 
companies evaluated now link executive compensation to greenhouse gas 
emissions performance.\48\
---------------------------------------------------------------------------
    \46\ Ceres. 2016. Seven Key Actions in Steering the Oil and Gas 
Sector to a Low-Carbon Future. November 2. Online at: https://
www.ceres.org/news-center/blog/seven-key-actions-steering-oil-and-gas-
sector-low-carbon-future.
    \47\ Fink, L. 2020. A Fundamental Reshaping of Finance. BlackRock. 
Online at https://www.blackrock.com/corporate/investor-relations/larry-
fink-ceo-letter.
    \48\ Ceres. 2017. Investor Climate Compass: Oil and Gas. Online at: 
https://www.ceres.org/resources/reports/investor-climate-compass-oil-
and-gas.
---------------------------------------------------------------------------
    Further, the United States, in its sluggishness on corporate 
disclosures, is being left behind in the global race. U.S. fossil 
energy companies now trail foreign oil firms like Total and Suncor, 
which are increasingly heeding investor calls for better climate-
related disclosure.\49\ The European Union, for example, is working to 
incorporate into disclosure requirements the recommendations outlined 
by the Task Force on Climate-related Financial Disclosures.\50\
---------------------------------------------------------------------------
    \49\ Ceres. 2016. Seven Key Actions in Steering the Oil and Gas 
Sector to a Low-Carbon Future. November 2. Online at: https://
www.ceres.org/news-center/blog/seven-key-actions-steering-oil-and-gas-
sector-low-carbon-future.
    \50\ Zimonyi, S. 2018. Will Europe be first to adopt the TCFD 
recommendations? London, UK: Climate Disclosure Standards Board. Blog, 
February 1. Online at https://www.cdsb.net/mandatory-reporting/765/
will-europe-be-first-adopt-tcfd-recommendations, accessed September 10, 
2018.
---------------------------------------------------------------------------
           the transparency in energy production act of 2020
    H.R. 5636 provides an opportunity to enhance transparency around 
energy industry operations. The following are suggested changes to 
further strengthen provisions of the bill to ensure the greatest 
transparency and utility of the required disclosures.

    <bullet> Section 3 should be amended to require timely disclosure. 
            Specifically, the Secretary should be required to make the 
            information reported under Section 2 publicly accessible at 
            the time it is received.
    <bullet> Section 3 should be amended to require disclosures be made 
            in an accessible format. The Secretary should require 
            companies making disclosure to do so in a format that is 
            consumable by a wide range of stakeholders, including 
            community members and researchers.

    <bullet> Section 3 should be amended to require that Agency 
            resources be used to increase public access. EPA and other 
            agencies have staff devoted to managing data and 
            interfacing with the public. This language would operate to 
            require the same at Interior.

    <bullet> Section 4, paragraph (1) should be amended to require 
            additional information be reported to Congress. Reports to 
            Congress should also include the other disclosure topics 
            and accounting metrics within the SASB Standard for the 
            Extractives and Minerals Processing Sector, including 
            Security, Human Rights, & the Rights of Indigenous Peoples, 
            Community Relations, Workforce Health & Safety, Reserves 
            Valuation & Capital Expenditures, Business Ethics & 
            Transparency, Management of the Legal & Regulatory 
            Environment, and Critical Incident Risk Management. These 
            metrics are required of companies' initial reporting and 
            could provide Congress valuable information to inform 
            future legislative or oversight efforts.

    <bullet> Section 4, paragraph (4) should be amended to provide 
            further clarity about the method by which companies would 
            calculate equivalent emissions. There are several options 
            for making such a calculation, and the resulting 
            information would be most meaningful if a method were 
            standardized. This could be specified in the bill, or 
            Congress could defer to Department of Interior experts to 
            choose an appropriate method.

    <bullet> Section 5, paragraph (3) should be amended to define 
            public lands to be inclusive of Tribal Land. Given the 
            amount of oil and gas extraction that occurs on Native 
            lands and the environmental justice issues surrounding 
            mineral extraction in Indigenous communities, greater 
            disclosure in this area is sorely needed and would aid 
            Indigenous communities in ensuring good corporate behavior 
            on their lands.

                               conclusion
    When energy companies fail to disclose their human and 
environmental footprints, others feel the impact. Investors face 
financial risk. The public pays in tax dollars when first responders, 
healthcare workers, local governments, and Federal aid services must 
respond to disasters at fossil energy facilities. And nearby 
communities pay every day when they are exposed to harm from routine 
emissions, leaks, and other damages exacerbated by poor disclosure and 
management. Companies owe it to all of us to be responsible actors. 
Disclosure is good for companies, communities, and the Nation; and the 
Transparency in Energy Production Act will help keep families informed, 
corporations held accountable, and the public safe. This vision of the 
future is worth striving for.

                                 ______
                                 

    Dr. Lowenthal. Thank you, Dr. Goldman.
    I would like to thank the panel for their testimony.
    I want to remind members of the Committee that Rule 3(d) 
imposes a 5-minute limit on our questions.
    The Chair is now going to recognize Members for any 
questions they may wish to ask the witnesses, and I am going to 
recognize Representative Levin for 5 minutes of questions.
    Mr. Levin. Thank you, Chair Lowenthal, for holding this 
hearing today.
    I represent a district and grew up in Southern California 
where we have worried my entire life about air quality 
criteria, air pollutants.
    I have also been an environmental attorney, so I have seen 
throughout my life the good work that we have done in Southern 
California to reduce those air pollutants.
    And I wanted to ask a few questions.
    Dr. Goldman, one argument from the fossil fuel industry 
seems to be that disclosing air pollution, greenhouse gas 
emissions, water usage, pretty much any other impact is somehow 
too complicated or too burdensome for them to carry out. Yet, 
other industries have done this.
    How have other industries been able to do this without it 
being too burdensome?
    And how can we learn from those experiences?
    Dr. Goldman. Thank you, Congressman.
    That is an important point. Many industries are already 
subject to these kinds of disclosure requirements around 
environmental reporting and health effects monitoring. This is 
something that companies regularly do, and other industries are 
required to do that under environmental laws.
    Unfortunately, many of our environmental laws have 
exceptions for the oil and gas industry, so they haven't been 
subject to these same requirements.
    But other industries have done this. It has not been 
burdensome. They have been able to do this monitoring, and 
indeed many fossil energy companies are doing this monitoring 
to comply with other requirements or for their own information 
anyway.
    So, this would not add any additional burdens on them. This 
is reporting what they should be doing anyway. It aligns 
closely with what public companies are already asked by the 
U.S. Securities and Exchange Commission to report.
    And the SASB requirements that are requested in the bill 
were developed with the extractives industry, so this is 
something that has had extensive industry input as well.
    Mr. Levin. Thank you for that. I think that is an important 
point.
    One of the other things that I sometimes hear is that if we 
embrace clean energy or oppose continued use of fossil fuels 
that somehow we are going to destroy the economy. My California 
experience tells me that is simply not true, that you can grow 
the economy and protect the environment at the same time.
    Ms. Mason, do you believe the argument that reducing 
emissions and addressing climate change is bad for business, 
bad for a company's bottom line?
    Ms. Mason. Thank you, Mr. Congressman.
    No, I think quite the contrary actually. I think opposing 
bills like the TEPA Act, simply, all it does is it provides 
information to investors and the American people with some 
critical data.
    Undermining the economy? Because how can it undermine it? 
It leads investors and policy makers to make critical 
decisions. Without the information, they don't make smart 
decisions from that standpoint.
    I guess just as an example, imagine purchasing a house 
without having done an inspection. How can the prospective 
homeowner have an accurate picture of the risks around the 
house?
    So, I believe that as a Nation we cannot continue to invest 
billions of dollars in companies that may not be viable for the 
long term and sustainable, and in fact, that is what would harm 
our Nation's economy.
    Mr. Levin. Thank you for that.
    I do acknowledge that many in the private sector are doing 
a lot when it comes to sustainability, and we appreciate those 
contributions.
    I also do sometimes hear that government should just stay 
out of it, and my follow up for you, Ms. Mason, is: do we need 
Federal policies to help drive down greenhouse gas emissions, 
or can the private sector do it all by itself?
    Ms. Mason. The SASB is very similar to what happened with 
the FASB, the Financial Accounting Standards Board. If we had 
left financial accounting standards to voluntarily be provided, 
the investor community themselves would be at a great detriment 
to having accurate information.
    So, I think voluntary information flow, even though we 
would like to have that happen as individuals, I have found in 
business that it really is the requirements around that that 
deliver the best transparency.
    That is part of why I think it is very important to have 
this Act go through.
    Mr. Levin. Mr. Chairman, if you can indulge one last 
question for Mayor Snover, I know that New Mexico recently 
regained the ability to fine oil and gas companies for 
violation, which I believe is an important tool for holding bad 
actors accountable.
    In general, what has been your experience with the state's 
enforcement over oil and gas operations?
    And what role do you think the Federal Government needs to 
play here?
    Mr. Snover. Thank you, Congressman.
    I have been in New Mexico for about 5 years, and I have 
overlapped the previous state administration and our current 
state administration with Governor Michelle Lujan Grisham.
    In my experience, in my short tenure as an elected official 
in Aztec, I have seen that we have gone from minimal 
enforcement and minimal following of the regulatory guidance to 
where we have really kind of turned the corner with our new 
administration and become more of a national leader in this 
enforcement to allow for and I feel like it has kind of put the 
energy industry on notice that they are going to get held 
accountable and held to the standard that is already on the 
books for them.
    Mr. Levin. Thank you, Mr. Snover.
    Thank you, Mr. Chairman.
    Dr. Lowenthal. Thank you, Representative Levin.
    I now call upon Representative Westerman for 5 minutes of 
questions. You can begin.
    Mr. Westerman. Thank you, Mr. Chairman. And thank you to 
the Ranking Member for yielding his position for me to go 
first. I appreciate that.
    And I appreciate our witnesses being here today, talking 
about an important subject.
    Mayor Snover, as I listened to your testimony and went 
through it, I just had some questions to make sure I understand 
your position on this.
    You state that you estimate that approximately half of your 
students suffer from respiratory issues and talk about how New 
Mexico's methane emissions are said to have the same short-term 
impacts on our climate as 22 coal-fired power plants or 28 
million internal combustion automobiles.
    And you also state that policy makers must establish an 
ambitious goal of zero emissions from public lands and waters 
by 2030.
    You also have a paragraph in here where you say, ``In New 
Mexico, under current regulations and rules, there is an annual 
loss of $275 million in energy resources and an additional $43 
million in state tax and royalty revenue that we could and that 
we should be investing in our school systems. In a state where 
our education system consistently ranks in the lower tier 
nationally, any opportunity to increase revenue for educational 
programs should be explored.''
    So, are you saying you should stop energy and mineral 
production on Federal lands, or is it a problem that the 
revenues off of those or the royalties are not going into the 
school system?
    Mr. Snover. Thank you, Congressman.
    I believe that we are in a transitional energy economy 
right now, and I would kind of liken it to when we were 
transitioning away from the horse drawn carriage. We were using 
the technology we had to invent the technology of the future.
    And while we are getting royalties from the oil and gas 
industry, a lot of those are used for our educational programs, 
and as a high school teacher in the school system in a state 
that is traditionally in the lower tier nationally, I think it 
is incredibly important to take every opportunity that we can 
to increase funding for education.
    And this is one of the ways to do it. And if we are, in a 
sense, allowing that, as the Chairman had mentioned about the 
methane leaks at the wellhead sites, it is basically leaving 
money on the table, in my estimation, and I think that we need 
to do everything we can to stem that and use our resources----
    Mr. Westerman. Your position is not necessarily to do away 
with energy and mineral exploration, but to make it safer and 
cleaner and to redirect the royalties or increase the 
royalties?
    I am just trying to understand.
    Mr. Snover. Well, to kind of capture the royalties, not to 
necessarily redirect them, but to capture them.
    And I am not suggesting that the energy industry is going 
to go away in New Mexico overnight, but I am suggesting that 
based on the Governor's plans to transition away to a carbon-
neutral energy environment, it is important, and I think that 
is the future of our country.
    And while we are doing that, we should do everything that 
we can to increase the amount of data available to make best 
use of the resources that we are extracting.
    Mr. Westerman. I am going to have to move on. I am limited 
on time.
    Mr. Snover. Yes, sir.
    Mr. Westerman. Dr. Goldman, you talked about accounting for 
greenhouse gas emissions from energy exploration. I am 
wondering if in your studies, have you looked at how much 
carbon is released in forest fires and decomposition of dead 
trees?
    And the follow up is: should there be reporting on those 
types of carbon emissions from public lands?
    Dr. Goldman. Thank you, Congressman.
    I think it is very important that we ensure we have as much 
reporting as possible on greenhouse gas emissions. When we look 
at the U.S. carbon budget, one thing that sticks out to me is 
the fugitive methane leakage and other greenhouse gas emissions 
from energy production sites.
    This is a significant part of our----
    Mr. Westerman. But I am talking about forests which cover 
millions of acres of public lands, and we have seen a rash of 
forest fires and exponential increase in forest fires and the 
amount of carbon being released from forest fires.
    I am saying if we are going to do accounting, I think we 
should take that into the equation because it is all part of 
the carbon cycle.
    I wish we had more time to discuss, but, Mr. Chairman, I am 
out of time, and I yield back.
    Dr. Lowenthal. Mr. Westerman, I am allowing Members to go a 
little bit over, so if you want to continue, please go at least 
one more minute.
    Mr. Westerman. Oh, thank you. Thank you very much.
    So, I am very concerned about the environment and how we 
are good stewards of that, but I think we discount the natural 
environment of forests and the ability of forests to make the 
air cleaner, to make the water cleaner, two of the things that 
you mentioned in your testimony.
    Yet, it was all focused on fossil fuels, but I think there 
also is a positive side of what we can do to keep our forests 
healthier, which we know is good for the atmosphere and good 
for water.
    Do you have anything you would like to elaborate on that?
    Dr. Goldman. Yes. Thank you, Congressman.
    That is something else that we should be thinking about. In 
the context of this bill, I have been thinking about how to 
better manage the emissions of energy production sites.
    That is the scope of what we are looking at here, and we 
know that that is something that we need a better handle on 
monitoring of.
    Many scientists do, of course, work on looking at carbon 
accounting of forests and what that looks like. I regularly 
attend conferences where that is a big discussion point.
    I think here we need to really be thinking about how are we 
getting a good handle on how energy production sites are doing 
on emissions because we know from scientific studies that there 
has been a range of emissions that have been estimated from 
fossil energy companies.
    So, in order to better understand the role that plays in 
carbon emissions in the United States, we need to start with 
the monitoring. We need to make sure that we have that 
information, and companies are disclosing that data.
    Mr. Westerman. And I think that the bill is shortsighted in 
that it only looks at one side of the ledger. It doesn't 
consider all the possibilities of carbon emissions and the 
things that we can do to be better stewards.
    There is a wealth of scientific data that also talks about 
how much carbon gets released in forest fires and other events 
and how much carbon we could sequester if we made our forests 
healthy.
    But we oftentimes have regulations that prevent any kind of 
management or work on the forests, which exacerbates the cycle 
of seeing these forests go up in flames.
    So, on top of the fact that I don't think we should be 
moving Federal regulations out to a non-profit or non-
governmental organization that is highly politically motivated, 
the concept of measuring and keeping an accurate accounting of 
what is happening on our Federal lands, I believe, is at least 
a good starting point.
    And I yield back.
    Dr. Lowenthal. Thank you, Mr. Westerman.
    I am now going to recognize myself for 5 minutes of 
questions also.
    Dr. Goldman, I would like you to tell us a little bit more 
about voluntary efforts by oil and gas companies on disclosure 
or self-regulation. What has been their track record on 
voluntary or self-regulations?
    And why have these been inadequate to protect the health of 
local communities?
    Dr. Goldman. Thank you, Chairman Lowenthal.
    Voluntary disclosure has been inadequate. There are several 
voluntary regimes, SASB included, and those do play a useful 
role in providing information to investors and the public.
    Unfortunately, those are inadequate because not everyone 
does it, and not everyone does it well. Many opt out of such 
regimes, especially those in the fossil energy industry don't 
always participate in those sorts of initiatives, and even if 
they do, there is often not the level of detail that we need in 
order to protect the public safety and to know how companies 
are operating on public lands.
    Unfortunately, this is the situation despite pressure from 
investors, from the SEC, and through the voluntary initiatives 
to ensure that companies have more information disclosed.
    For the purposes of communities and observing what is 
happening on Federal lands, we need disclosure to be more 
timely. We need it more accessible, and we need it to be 
consistent across companies and across states.
    Dr. Lowenthal. Thank you.
    Ms. Mason, why are shareholders and investors increasingly 
demanding that companies disclose the impacts associated with 
their businesses?
    Is it simply because they think it is the moral thing to 
do, or do they believe that there are financial benefits of 
publicly disclosing this information?
    Ms. Mason. Thank you, Mr. Chairman.
    I don't think that the American shareholders are 
necessarily viewing this as a moral decision as it is a 
financially driven decision.
    BlackRock itself is a financially driven organization. If 
you look at other members, even the founding member of FASB 
being Goldman Sachs, CalSTRS, CalPERS, these are financially 
driven organizations, and they have an interest in ensuring 
that whatever businesses they invest in long term are viable 
and will be around with labor returns and economic returns for 
them.
    In that manner, we view, or at least I do in our 
organization, that the American people are shareholders in the 
public lands and, therefore, they have a right to that level of 
transparency just as public shareholders have rights of that 
transparency in their company investments themselves.
    So, it is clearly a business decision from that standpoint.
    Dr. Lowenthal. Thank you.
    Mayor Snover, last spring, as I mentioned earlier, the 
Subcommittee visited New Mexico and heard from local experts 
about the health impacts of methane emissions.
    Ms. Barbara Webber of Health Action New Mexico testified in 
our hearings about how the long-term exposure to ozone 
increases the risk of asthma in children, and how the rate of 
asthma is higher in New Mexico than the national average.
    You mentioned that already in some of the impacts upon your 
students, but how is your experience?
    Can you go into more depth about the experience of the 
impact of methane and air pollution on your students? Can you 
describe that in a little bit more detail?
    Mr. Snover. I will do my best, Mr. Chairman. Thank you.
    First, I just want to make it clear, I am not a doctor. I 
am not a respiratory doctor. I am not an environmental expert. 
I am a retired Army sergeant first class. I teach Army Junior 
ROTC in the small town of Aztec, New Mexico.
    Dr. Lowenthal. And thank you for your service.
    Mr. Snover. I appreciate that. Thank you.
    But I know what I experience. I know that when we go out on 
Fridays, throughout the school day we do a lot of PT or 
physical training. It is stuff that the Army mandates that we 
do as JROTC programs. We get a physical education credit 
through a New Mexico high school accreditation.
    And I often see kids running back to their bag. ``Let me 
grab my inhaler just in case.'' There are days when it seems to 
be especially, or it kind of spikes a little bit more than 
others in the warmer months, of course.
    And it is just one of those things that, again, I am not a 
doctor. I am not an expert in this field. I just know what I 
see, and it is anecdotal.
    I am not suggesting that that is the only cause of this and 
that it would completely go away, but you cannot help but ask 
yourself if we have an opportunity as policy makers and as 
elected officials to try to do something, that doesn't mean it 
is going to fix the entire problem, but it certainly could go 
at least a short distance or some distance in helping to 
mitigate part of the problem.
    And I think it is that piecemeal way to fix a problem that 
we have to be aware of and we have to take action on any chance 
we get. I mean, these kids need our help, and we should be 
there and be more concerned about their health and welfare than 
discussing profit and loss and cost of equipment.
    Dr. Lowenthal. Thank you, Mr. Snover.
    I now recognize Representative Hern for his 5 minutes of 
questions.
    Mr. Hern. Mr. Chairman, thank you so much. Leader Gosar, 
thank you and our witnesses for being here to testify on the 
importance of public disclosure requirements.
    As a Congressman from the 1st District of Oklahoma, I 
represent a lot of people in the oil and gas industry, and it 
is 25 percent of our state budget and millions of jobs in our 
state.
    And I was hopeful that we would start this year off with 
hearings on the right foot and recognize the importance of what 
it is when we have seen what has recently happened in Venezuela 
and the Middle East, how important our fossil fuel dominance 
has been in the world and what it means to be a net exporter 
and how important that has been to the world geopolitical 
stage.
    But today is just another unfortunate episode in the 
relentless attack by my Democrat friends in the war on fossil 
fuels and the American energy sector.
    The bill before us today is no different than the policies 
that have been pushed over the last year, and like the Green 
New Deal, the bill would cripple our energy sector while also 
lining the pockets of unaccountable, unelectable--I said 
``unelectable,'' I am sorry--unelected non-governmental 
organizations funded by liberal Democrat Presidential 
candidates, who might be unelectable.
    My colleagues across the aisle claim that this bill is 
necessary because of a need for greater transparency, but this 
is nothing more than a veiled attempt to hamper our energy 
sector with more meaningless, tedious paperwork, more 
regulation.
    Additionally, this information could easily be used by 
anti-energy groups looking to hinder the regulatory process 
with frivolous lawsuits that provide us no benefits to the 
public. It is a bad bill, will never be considered by the 
Senate, and will never become law.
    Mr. Stein, you talk about this in your testimony as you 
note that this legislation will hamper our energy production by 
imposing unnecessary costs.
    You state that rather than a genuine bid for transparency, 
this legislation is more accurately described as an effort to 
impose higher costs on energy leasing on Federal lands.
    Can you elaborate on this and how this bill would impose 
these costs on energy leasing and how this would affect our 
energy sector?
    Mr. Stein. Sure. There are lots of ways that the way the 
bill is constructed would add onto cost. You talk about the 
frivolous litigation. That is already a problem with leases on 
all Federal lands. We see it in Wyoming and Colorado. We have 
seen leases withdrawn because of problems with the NEPA 
process.
    This is just adding a whole new layer of process onto that, 
and every little section of these disclosures is vague about 
how much of something needs to be disclosed.
    Is there a certain threshold above it that needs to be 
disclosed?
    How is something calculated?
    There are no metrics in there, so even if you go through 
all of this work and do all of this disclosure, every single 
section an environmentalist group can come in and sue and say, 
``That is not enough,'' or ``You didn't include everything 
there.''
    And it basically brings the entire leasing process to a 
halt, even if there is an executive in the office that actually 
wants to pursue these leases.
    Mr. Hern. Thank you.
    It is clear these costs will be a great detriment to the 
energy sector.
    You also talked about the duplicative nature of this 
legislation. It is my understanding that this information is 
already regularly reported through the NEPA process and already 
is given to the EPA.
    This means the disclosure requirements will not only 
increase transparency, but also will hamper the energy industry 
and its ability to operate smoothly.
    Could you talk about the duplicative processes?
    And I think you started to allude to it a little bit with 
NEPA there, but can you talk about that as well, about how they 
are already reporting some of these requirements?
    Mr. Stein. Sure. Well, certainly all of the air emissions, 
all of the NOCs, SOCs, even greenhouse gases, are all reported 
to the EPA. So, the Federal Government already has this 
information.
    The estimates of methane or gas that is vented or flared, 
that is already filed with the BLM.
    Now, it is possible that the Federal Government makes it 
hard to access that information. I think that is certainly 
possible, but through all of the main sections of these SASB 
standards, that information is already being given to the 
Federal Government.
    The stuff that is not currently being reported to the 
Federal Government are the sort of things that don't really 
have anything to do with leasing on Federal lands, some of the 
sort of global impacts.
    One of the sections says that you need an estimate of how 
many of your reserves are in or near conflict areas around the 
world. That doesn't really have anything to do with leasing on 
Federal lands.
    Mr. Hern. I appreciate, again, you all being here today, 
and I think it is being very clear that every step of the way 
my colleagues across the aisle have been trying to curtail the 
successes that we have seen in the fossil fuel industry.
    And whether it is this bill or a Green New Deal, which 
nobody on the left likes to talk about right now, they are 
regularly overlooking the necessity of energy development 
blatantly and ignoring the harm these policies would cause.
    They would rather fuel the extremely litigious, anti-energy 
lobby and outsource regulatory requirements to a Board funded 
by their friends, who are identified as being the largest 
funders, and that is Democratic Presidential candidate Mike 
Bloomberg and Tom Steyer, than to advocate for reliable sources 
of power and energy for the American people.
    As someone who understands the negative effect my 
colleagues' actions would cause on an American industry, I 
cannot support their initiatives.
    And, Mr. Chairman, can I ask one question for just sort of 
clarity, if I may?
    Dr. Lowenthal. Absolutely.
    Mr. Hern. Mr. Snover, I am in a state where football is 
played in the warm months. Both of my sons played outdoor 
baseball. This is the first I have heard that the energy 
industry is causing great harm to our kids.
    Do you have a percentage?
    And I appreciate your statement identifying that you are 
not a doctor and this is just anecdotal, but do you have a 
percentage of your kids that you think are being harmed by the 
methane releases in your community?
    Mr. Snover. Well, like I said, Congressman, and thank you 
for the question, I cannot obviously state exactly what is 
causing any respiratory issues. But I have taught in two 
different parts of the country, on the East Coast in West 
Virginia, and back in New Mexico in Aztec like I currently do.
    And while kids in this generation, I think it is fair, 
maybe have a higher propensity of diagnosed respiratory issues, 
again, anecdotally, from my experience I would say 4 or 5 out 
of 10 display some sort of respiratory issue.
    And, again, I am not going to attribute it all to methane 
gases.
    Mr. Hern. But would it be safe to say if in your part of 
the country, if it were due to allergies to trees and 
particular plants, you wouldn't be for eliminating all of those 
if that were the cause.
    Like we live in one of the highest areas for allergy 
contaminants known in America in the Midwest, but we are not 
advocating removing all the trees and plants.
    I yield back, Mr. Chairman.
    Dr. Lowenthal. Thank you.
    And now, Representative Lujan, welcome to the Committee, 
and I recognize you for 5 minutes of questions.
    Mr. Lujan. I want to thank you, Mr. Chairman. I want to 
thank the Ranking Member and the members of the Subcommittee 
today and the Natural Resources Committee for allowing me to 
testify a little bit here, if you will.
    And the reason I say that is I want to welcome our mayor 
from New Mexico, Mr. Victor Snover from Aztec, New Mexico. I 
know he has already been welcomed.
    I have had the honor of working with and getting to know 
the good mayor with his advocacy in the community. I always 
appreciate his courage and his honesty in coming forward to do 
what is right in our community.
    So, thank you, Mr. Mayor, for being here.
    Mr. Chairman, this is an important hearing and an important 
piece of legislation. I appreciate the conversation.
    Last April, the Natural Resources Committee under your 
leadership and that of Chairman Grijalva traveled to New Mexico 
to hold a hearing on the impacts of oil and gas on local 
communities.
    During the trip, we were able to visit an oil and gas well 
in the 3rd Congressional District and not just smell the 
methane emission, but with a piece of technology called the 
forward-looking infrared camera, you are actually able to see 
the emissions.
    It was the first time I have ever looked out of one of 
those cameras. You could smell it while you were there, but 
what you could see through this camera were plumes as large as 
anything that you can imagine.
    Think about when clouds gather and you look up and you see 
the immensity associated with the gathering of that humidity. 
These plumes look just like those clouds, the size of any 
distance that I could describe. It was alarming. It is 
something to smell it, it is another thing to smell it and see 
it.
    To make matters worse, the Federal Government does not 
properly account for how much gas is emitted from these wells 
into our atmosphere. According to the Environmental Protection 
Agency, New Mexico releases 205,000 metric tons. However, a 
group of leading scientists by the Environmental Defense Fund 
went to more than 100 sites to make on-the-ground measurements 
and determined that methane emissions in New Mexico are likely 
closer to 1 million metric tons, five times higher than the EPA 
number.
    The Transparency in Energy Production Act would simply 
require public disclosure from oil and gas companies operating 
on public lands, also renewable companies operating on public 
lands, so that the public knows what is happening in their 
backyards.
    That is all that this legislation is doing and saying, and 
I appreciate the information that has already been submitted 
into the record. There is a table that lists everything that is 
required. It is titled Table 1--Required Disclosure Topics and 
Accounting Metrics for Public Land Operations.
    So, in the short time I have left, Mayor Snover, as a 
father, a high school instructor, and a mayor, are you 
concerned with how climate change will impact the lives of 
children and the future of communities?
    Mr. Snover. Thank you, Congressman Lujan, and might I add a 
new grandfather as well.
    So, with all of those things in mind, I think all of us are 
concerned about the future of our climate, and as all of those 
things, as an elected official that helps provide input for 
policy, as a high school teacher that sees their kids suffering 
from respiratory issues, and not only that, but some of the 
disparities of, like I had said in my testimony, of not being 
able to move away from these areas that you described.
    I was not there with you that day, but I have experienced 
similar smells, not the views because I have not had access to 
one of the cameras.
    But, of course, I think it is a problem that we have to 
tackle, we have to be proactive on, and merely saying that we 
cannot afford it is not acceptable in the richest country in 
the Nation.
    Mr. Lujan. In New Mexico, under the leadership of our new 
governor, Michelle Lujan Grisham, there was a bipartisan effort 
to move legislation forward to reduce capture with a goal of 
eliminating methane emissions in New Mexico. Is that correct?
    Mr. Snover. Yes, sir.
    Mr. Lujan. And are those conversations continuing to move 
in a positive fashion with what you are aware of, Mr. Mayor?
    Mr. Snover. Yes, sir. From what I am aware of, they are 
moving in a positive direction. These things are always large, 
complicated issues to tackle.
    There are many interests to consider, but I do believe they 
are moving in a positive direction, and I thank the Governor. I 
appreciate her leadership on this and her willingness to get us 
on the right side of history on this one.
    Mr. Lujan. And last, stopping intentional flaring and 
venting and leaking of natural gas is good for everyone's 
bottom line. It is good for taxpayers. It is good for the 
industry. Everyone will make more money, and we will have 
healthier communities and better air quality if we get it done.
    I am hoping that we will find a way to get some of this 
done together.
    I thank the indulgence of the Chairman and the Committee 
for their time today.
    Dr. Lowenthal. Thank you, Representative Lujan.
    I now recognize the Ranking Member and thank him for 
allowing his Members to go first. I appreciate that, and I 
recognize you for 5 minutes.
    Dr. Gosar. Thank you, Chairman.
    I would like to now turn our attention to the renewable 
energy projects for a moment since even wind and solar 
developments do not escape this legislation unscathed.
    One of the standards outlined for renewable energy projects 
is sustainable sourcing of raw materials, including copper, 
cobalt, rare earth, and many others. I completely agree that 
this is a critical evaluation in the development of solar and 
wind technologies.
    But I find it very ironic to be discussing these concerns 
today since my colleagues on the other side of the aisle seem 
determined to prevent domestic hardrock mining at every 
opportunity both in Committee and on the House Floor, even 
though the country has some of the best labor and environmental 
standards in the world.
    Would you agree with that, Ms. Mason, that we have some of 
the best environmental and labor laws in the world?
    Ms. Mason. I am not an expert on labor law or environmental 
laws. I can only speak from the standpoint of the businesses 
that I invest in, which are not renewable energy companies or 
any climate related companies.
    Dr. Gosar. Well, you made the comment about Goldman Sachs. 
So, if they are underlying that, I mean--in fact, I will go to 
the good doctor.
    Do we have some of the best environmental and mining 
techniques in the world?
    Dr. Goldman. Thank you, Congressman or Ranking Member. We 
have----
    Dr. Gosar. Yes or no, because it is a yes or no answer.
    Dr. Goldman. We have protective environmental laws.
    Dr. Gosar. Yes, we have the best. They have been ranked 
higher than China, have they not?
    Dr. Goldman. I imagine so.
    Dr. Gosar. Yes, and how about India?
    Dr. Goldman. I imagine so.
    Dr. Gosar. How about Mexico?
    Dr. Goldman. I don't know for certain.
    Dr. Gosar. No, it is. Once again, these are hard facts, so 
when we look at supply chains, we have to start looking at 
this, particularly when we are going in, as the Mayor said, a 
transition in energy production. So, this is all included.
    Mr. Stein, in regard to that, can you comment on the labor 
laws and the environmental dictations that we require in the 
United States?
    Mr. Stein. Sure. You are absolutely correct. Our 
environmental standards are higher, frankly, than even in many 
countries in Europe. We are very aggressive about protecting 
the environment in the United States.
    One of the effects of that has been that we have ended up 
not developing a lot of these minerals in the United States, 
but that doesn't mean that we don't continue to demand those 
materials for renewables, the steel in renewables, all of the 
cobalt.
    Most of the world's cobalt comes from the Democratic 
Republic of Congo where it is mined in essentially modern-day 
slavery conditions.
    Dr. Gosar. And just to that point, who is the principal 
owner in the Congo of some of those mines?
    Mr. Stein. Well, sometimes it is very hard to tell, but at 
the ground level it is----
    Dr. Gosar. Most of them are China.
    Mr. Stein. Well, it is also warlords, frankly, and then the 
Chinese take and extract those products because they buy from 
anyone. They don't have scruples like we do about bribery and 
funding.
    Dr. Gosar. It also goes with one belt, one road dictation, 
does it not?
    Mr. Stein. Sorry. I don't----
    Dr. Gosar. So, the one belt, one road is China leverages 
infrastructure at the cost of having resources.
    Mr. Stein. And it also involves building a lot of new coal 
plants all over the world, too.
    Dr. Gosar. Yes, so when you look at this, the vast majority 
of renewable energy is developed on state and private land, 
with only about 1 percent of the wind farms located on 
federally owned lands, with the overwhelming majority on 
private land.
    Wouldn't this bill adversely impact investments in 
renewable energy development as well as conventional energy 
production?
    Mr. Stein. Sure. A lot of the lawsuit risk that I was 
mentioning earlier, that equally applies to wind and solar 
production, and this actually happens with a lot of solar 
farms, they get sued for effects on endangered species. Wind 
farms also have the same problem, affecting endangered species.
    So, these series of lawsuits going through each section of 
the disclosure standards, that is going to slow down wind and 
solar development, too, in exactly the same way.
    Dr. Gosar. We are also in a dichotomy in the fact that 
these alternative energy modalities are intermittent. They are 
not baseload, right, Mr. Stein?
    Mr. Stein. Sure.
    Dr. Gosar. How do we have to look at that mitigation so 
that we have a constant current going through our transmission 
lines?
    How do we have to look at the displaced value? Because when 
you look at solar, it is after noon that we get too much of it. 
In fact, California pays Arizona to take their excess solar, 
which totally changes our dynamics in our marketplace.
    Can you describe a little bit about that?
    Mr. Stein. Sure. Because wind and solar are so 
intermittent, it requires backups of some sort, and, frankly, 
today most of that backup is done by natural gas.
    And a lot of times in the calculations of the greenhouse 
gas emissions or greenhouse gases avoided, those calculations 
are not taken into account.
    They are assumed that we will eventually have batteries at 
some point in the future, but these batteries, it is thousands 
of tons of the minerals that we are talking about being shipped 
in from all over the world, processed in China, and then 
produced in these batteries and then recycled.
    So, all of that life cycle cost really is not included in 
this cost avoidance, greenhouse gas avoidance.
    Dr. Gosar. And, in fact, we have seen the other side add an 
intentional prohibition of actually mining for these, even 
though they are all over.
    I am from the state of Arizona. In fact, Mayor Snover, I 
actually have family that live in Aztec. So, I mean, we see 
somebody talking out of one side of the mouth and then 
completely out of the other side of the mouth.
    Mr. Stein. It is true. If these minerals are not mined in 
the United States, they have to be mined somewhere. To replace 
our existing electricity, we are talking about 100 percent 
renewables. We are talking about 12 percent of the continental 
United States just in wind farms to replace current electricity 
production.
    That is a vast undertaking of construction, and those 
minerals have to come from somewhere.
    Dr. Gosar. Mr. Chairman, for the record, I would like to 
submit a letter from the National Mining Association in regard 
to against this bill.
    Dr. Lowenthal. Without objection.

    [The information follows:]
                       National Mining Association,
                                             Washington, DC

                                                     April 28, 2014

Filed via Email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5cbd7d7fac6cac8c8c0cbd1d6e5d6c4d6c78bcad7c2">[email&#160;protected]</a>

Dr. Jean Rogers
Founder and Executive Director
The Sustainability Accounting Standards Board
75 Broadway, Suite 202
San Francisco, CA 94111

Re: Non-Renewable Resources Sector; Coal Operations & Metals & Mining 
        Exposure Drafts for Public Comment (January 2014)

    The National Mining Association (NMA) submits the following 
comments on the Sustainability Accounting Standards Board (SASB) 
Exposure Drafts on coal operations and metals and mining released on 
January 14, 2014. SASB shared the Exposure Drafts with NMA on February 
12, 2014, and hosted a webinar for NMA members on the organization and 
development of the sustainability accounting metrics on March 4, 2014. 
NMA appreciates SASB's willingness to educate our staff and members on 
the mission and efforts undertaken by the organization in developing 
sustainability accounting standards for use by publicly-listed 
corporations in disclosing material sustainability issues. However, NMA 
strongly opposes SASB's work to date and will not support in any manner 
SASB's ongoing efforts to develop disclosure guidance or accounting 
standards on sustainability topics for coal operations and the metals 
and mining industry in the ``non-renewable resources sector.''
Statement of Interest
    NMA is a national trade association whose members include the 
producers of most of the nation's coal, metals, industrial and 
agricultural minerals; the manufacturers of mining and mineral 
processing machinery, equipment and supplies; and the engineering and 
consulting firms, financial institutions and other firms serving the 
mining industry. NMA members produce energy, metals and minerals that 
are essential to economic prosperity and a better quality of life. NMA 
members are committed to development that balances social, economic and 
environmental considerations.\1\ NMA and our members are also committed 
to the safety of employees through the CORESafety<SUP>'</SUP> 
program.\2\ As stated above, NMA and its members do not support SASB's 
efforts to date in determining and dictating which sustainability 
issues are material industry-wide and consequently should be disclosed 
(voluntarily or through a formal rulemaking process) in annual (i.e., 
Form 10-K or 20-F) or periodic filings to the U.S. Securities and 
Exchange Commission (SEC).\3\
---------------------------------------------------------------------------
    \1\ See NMA Position on Sustainable Development at http://nma.org/
index.php/position-on-sustainable-development (last visited April 8, 
2014).
    \2\ CORESafety is an approach to mining safety and health focused 
on preventing accidents before they happen, using a management system 
approach to drive continuous safety improvement. Its objective is to 
have zero fatalities and a 50 percent reduction in mining's injury rate 
within 5 years (0:50:5). CORESafety is the first system to integrate 
leadership and culture into an industry management system that includes 
self-reporting. See http://www.coresafety.org/.
    \3\ NMA's membership consists of U.S. and foreign public companies 
that are listed on the U.S. stock exchange and comply with existing 
U.S. Securities and Exchange Commission (SEC) regulations and filing 
obligations. NMA's membership also consists of private companies not 
governed by SEC regulations.
---------------------------------------------------------------------------
NMA's Objections to the SASB Approach and Exposure Drafts

  1.  The SEC's Existing Rules are Comprehensive: Companies listed on 
            the U.S. stock exchange are already required to report 
            material risks in their regulatory filings with the SEC, 
            including sustainability information that a company deems 
            to have a material impact on its current or future 
            financial performance. If the SEC wanted additional 
            disclosures from companies, it would pursue informal or 
            formal guidance to elicit additional information.

       Additionally, any stakeholder interested in obtaining further 
            information from a company on its sustainability 
            performance may contact that company directly to encourage 
            additional disclosures and engage in direct dialogue with 
            the company on these issues. SASB's efforts to intrude into 
            this process as a third party and push an aggressive 
            campaign on expanded disclosures that are irrelevant to 
            what a ``reasonable investor'' would expect from companies 
            is entirely inappropriate. In the end, the company and not 
            SASB is in the best position to determine what 
            sustainability information is material to its operations 
            and whether it should be disclosed. Furthermore, there are 
            a multitude of robust voluntary disclosure programs on 
            sustainability that SASB ignores in the development of its 
            program, which only results in an additional scheme that 
            does little to provide clarity and continuity for companies 
            or their investors.

  2.  SASB's ``One-Size-Fits-All'' Approach Improperly Expands the 
            ``Materiality'' Standards under Current SEC Law: In its 
            briefing of NMA members, SASB proclaims that companies, 
            within the confines of U.S. Supreme Court precedent, define 
            ``materiality''. However, SASB's entire approach is to 
            determine for an industry sector what is ``material 
            information'' and ``materiality'' for disclosing 
            sustainability issues. In the Conceptual Framework, SASB 
            states that an aggregated analysis at the industry level is 
            appropriate ``because companies that provide similar 
            products and services tend to have similar business models, 
            use resources in similar ways, and therefore tend to have 
            similar impacts on society and the environment.'' See SASB, 
            Conceptual Framework at 9-10 (October 2013). SASB goes on 
            to explain that ``analysis of the impact of sustainability 
            topics at the industry-level is meant to provide guidance 
            for disclosure on sustainability topics that are likely to 
            be material at the company-level.'' Id. at 1O (emphasis 
            added).

   This analysis turns the whole concept of a ``materiality'' 
            determination on its head. By acting as the self-empowered 
            arbiter on sustainability accounting metrics--metrics that 
            are based on largely insupportable research and findings on 
            the regulatory trends and sustainability-related risks 
            facing the industry without meaningful participation of 
            industry experts--SASB acts in direct conflict with SEC's 
            approach to entity-specific materiality determinations and 
            the Supreme Court's fact-specific standard. Furthermore, by 
            creating an ``industry materiality'' standard, SASB ignores 
            the incredibly important fact that companies within the 
            mining sector operate under a unique set of circumstances 
            (i.e., the region in which a company operates, the scale of 
            the operation, the grade of the ore mined and how it is 
            processed, the ownership and size of the operation, etc.). 
            Therefore, what is material for company ``A'' will not be 
            material for company ``B.'' Providing ``industry 
            materiality'' guidance will only serve to confuse 
            shareholders and other stakeholders into believing that all 
            of the activity and accounting metrics identified by SASB 
            are material and companies that do not disclose all of them 
            are misleading investors. SASB is not ``complet[ing] the 
            picture on corporate performance'' as proclaimed by the 
            organization in its presentation, but creating a system of 
            disclosure that will mislead and confuse investors in their 
            investment decisions.

  3.  SASB's Reporting Requirements are Largely Inappropriate, Go 
            Beyond the ``Reasonable Investor'' Standard and are 
            Inappropriately Forward-Looking and Speculative: Given our 
            opposition to SASB's actions to date in developing these 
            industry sustainability accounting metrics, NMA will not 
            provide a thorough critique of every topic and accounting 
            metric provided in the Exposure Drafts. As a whole, NMA 
            objects to the Exposure Drafts for coal operations and the 
            metals and mining industry and lends no support to 
            individual topics or metrics identified. However, given 
            this opportunity to comment, there are several important 
            overarching concerns with the approach SASB has taken. 
            First, many of the metrics do not even meet SASB's own 
            criteria of being relevant/useful, cost effective, 
            comparable and auditable. Second, many of the metrics are 
            not reflective of the ``reasonable investor'' standard 
            under U.S. securities laws. Finally, some of SASB's 
            reporting requirements are inappropriately forward-looking 
            and speculative and beyond what the SEC requires. For 
            example, speculation on the potential for greenhouse gas 
            emissions embedded in proved coal reserves are not base 
            level risks to investors. Such metrics do not account for 
            advances in control technology that are arguably more 
            relevant to investors than the metrics identified by SASB.

    All in all, NMA strongly opposes the finalization of the Exposure 
Drafts for coal operations and the metals and mining industry. NMA will 
not support this initiative as it moves forward and will advocate 
against the adoption of these standards in any future rulemaking 
proceedings with the SEC.

            Sincerely,

                                        Tawny A. Bridgeford
                                             Deputy General Counsel

                                 ______
                                 

    Dr. Gosar. And one last point. When we talk about 
transparency and evaluation, I find it interesting that we 
still do not have the dissertation about climate, what was 
actually done for background to have all of the information, 
how it was actually looked at.
    I am a believer that climate always changes, but we need to 
have all the data and how it was collected, where it was 
collected and making that transparent for the American public 
because that has never been disclosed.
    I yield back.
    Dr. Lowenthal. Thank you, Mr. Ranking Member.
    We are going to be closing this hearing, but before we 
close the hearing, I would like to ask each witness one last 
question.
    What is the one question you were not asked today that you 
wish you were asked, and what would be your answer to that?
    So, is there any question? If you don't think there was any 
question, then just say no, but is there one question that you 
were not asked that you wished you were asked by the panel up 
here, and what would be your answer to that question?
    I am going to start with Ms. Mason. Is there any question 
you were not asked that you came prepared or you would have 
liked to have been asked?
    If not, that is fine.
    Ms. Mason. I think actually the Committee did an excellent 
job of the questions across the board, so I have nothing to 
add.
    Dr. Lowenthal. OK. Thank you.
    Mr. Snover, is there one question that you would have liked 
to have been asked that now is your opportunity and what is 
your answer or you would like to elaborate on some answer?
    Mr. Snover. Thank you, Mr. Chair.
    I would just like to maybe touch on the Energy Transition 
Act that was enacted in New Mexico last year, which included 
$40 million to help northwest New Mexico transition away from 
coal, and whether I support providing transition assistance to 
impacted communities.
    And my answer is, of course, because as we had talked 
through some of the questions and answers and some of the 
testimony about transitioning our energy economy to a more 
renewable energy economy, there are going to be people who are 
kind of lost or potentially left behind in these transitions, 
folks that are, I mean, I hate to admit it but my age, in their 
early 50s and older that have been in a career for decades 
perhaps, and they know nothing else. They don't possibly have 
any other readily marketable skills.
    But I think it is our obligation as elected officials and 
policy makers that we have a role to play to provide the best 
possible outcomes for those hardworking New Mexicans, 
specifically that they just want to provide a good life for 
their families, they want to be able to pay their bills, and 
they want to have pride in what they do every day.
    And as we transition into this new energy economy, they 
don't have time to worry about what we are doing here today. 
They are just trying to go to work and make a living.
    I think it is important that we support these laws such as 
the Energy Transition Act in New Mexico and try to give these 
folks as much opportunity to move into the next phase of their 
careers as possible.
    Thank you, Mr. Chairman.
    Dr. Lowenthal. Thank you, Mr. Snover.
    Mr. Stein, any question that you would have liked us to ask 
or you would like to elaborate on some answer? This is your 
opportunity.
    Mr. Stein. Sure. Thank you very much, Mr. Chairman.
    I just want to point out the question here is why this 
needs to be put on the private sector. As I said, a lot of this 
stuff is already reported to the Federal Government.
    If local communities or independent groups are not able to 
get this information, that is a government transparency 
problem. It is not the companies themselves that are not 
sharing this information.
    So, I think the question is why this cost needs to be put 
on the private sector rather than being put on these agencies 
whose job it is to monitor these sorts of things anyway.
    Dr. Lowenthal. Thank you.
    And, Dr. Goldman, one question or something you would like 
to elaborate on?
    Dr. Goldman. Thank you, Chairman.
    I want to address the question of why this matters. Why 
does disclosure matter?
    When I think about that, I think about the fact that this 
matters to the more than 8,000 residents who were displaced 
from their homes during the Aliso Canyon disaster a few years 
ago.
    And it matters to the Indigenous communities that are 
living downstream of energy production sites without even 
knowing what might be being emitted into their waterways.
    And it matters to the countless people in this country who 
live in the shadow of energy production sites and wake up every 
day wondering if their headache or their child's nosebleed is 
the result of toxic pollution from a nearby facility.
    We owe it to them to ensure that this vital information is 
disclosed. This bill has requirements that are feasible and 
long overdue for companies, but more importantly, this bill is 
necessary and urgent for the American people.
    Dr. Gosar. Mr. Chairman, could I ask a question of the 
Chair?
    In Arizona, we have the Navajo Generating Station, and as 
you know, the tribes actually are under the purview of Congress 
because of a trust agreement.
    How would this legislation work when we have the trust 
responsibility? Would the Navajo Nation be responsible to 
report to this Board? Because it seems very odd and a 
contradiction of our due diligence under the Constitution.
    Dr. Lowenthal. To answer your question, as it is written, 
it does not apply to the tribes at all.
    Dr. Goldman. If I may, may I elaborate on my comment?
    Dr. Gosar. Well, once again to the Chair, that sets one 
standard for one set of people and a different set for another.
    Dr. Lowenthal. That is why we call it sovereign nation.
    Dr. Gosar. OK. Now that you opened up that worm, once 
again, they are wards of the Federal Government because they 
come every year to the United States under the auspices of 
appropriations. A sovereign entity has no entailments to 
another government. It is a pseudo type of application.
    So, once again, how can we establish one standard for one 
group of people and yet not another?
    Dr. Lowenthal. Well, we do, and I would be willing to work 
with you to discuss that issue in a hearing. I think you have 
raised an important issue. We do not deal with that in this 
bill at all.
    But you have raised an issue that I don't think has to do 
specifically just with this bill. It has to do with all bills 
that really have to do with when we are talking about dealing 
with Native Americans on their designated land.
    So, I would be willing to work with you. I think that is an 
interesting question that you raise. How can we have two 
standards?
    Dr. Gosar. And it goes beyond that because we have had some 
discussion in regard to Chaco Canyon. In regard to an amendment 
that is the requirement because of the Native Americans who 
have allotments behind that aspect. They have to be able to 
have access and to increase their claim.
    So, once again, we keep running into this roadblock, and I 
think it is something that we ought to address sooner than 
later in that regard.
    From that standpoint, I just wanted to bring that up.
    Dr. Lowenthal. Thank you.
    With that, I believe that we have kind of completed the 
hearing, and I would like to say that the members of the 
Committee here may have some additional questions for the 
witnesses, and we are going to ask you to respond in writing 
for any additional questions.
    Under Committee Rule 3(o), members of the Committee must 
submit their witness questions within 3 business days following 
the hearing, and the hearing record will be held open for 10 
business days for these responses from the witnesses.
    If there are no further questions and no further business, 
without objection, the Committee stands adjourned.

    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
